<html>
<title> - THE NATIONAL PREPAREDNESS REPORT: ASSESSING THE STATE OF PREPAREDNESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                THE NATIONAL PREPAREDNESS REPORT: 
                ASSESSING THE STATE OF PREPAREDNESS
=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY

                        PREPAREDNESS, RESPONSE,

                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 6, 2012

                               __________

                           Serial No. 112-96

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
79-503                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Scott Rigell, Virginia               Laura Richardson, California
Tom Marino, Pennsylvania, Vice       Hansen Clarke, Michigan
    Chair                            Kathleen C. Hochul, New York
Blake Farenthold, Texas              Bennie G. Thompson, Mississippi 
Robert L. Turner, New York               (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
              Vacancy, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Hansen Clarke, a Representative in Congress From 
  the State of Michigan, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Mr. Timothy W. Manning, Deputy Administrator, Protection and 
  National Preparedness, Federal Emergency Management Agency:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Stanley J. Czerwinski, Director, Intergovernmental Relations, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14

                                Panel II

Mr. John W. Madden, Director, Alaska Division of Homeland 
  Security and Emergency Management, On Behalf of the National 
  Emergency Management Association:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. Mike Sena, Deputy Director, Northern California Regional 
  Intelligence Center, On Behalf of the National Fusion Center 
  Association:
  Oral Statement.................................................    32
  Prepared Statement.............................................    34
Dr. Georges C. Benjamin, M.D., Executive Director, American 
  Public Health Association:
  Oral Statement.................................................    40
  Prepared Statement.............................................    42

                             FOR THE RECORD

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Letter From the BuildStrong Coalition..........................     3

                                APPENDIX

Questions Submitted by Chairman Gus M. Bilirakis for Tim Manning.    53


 THE NATIONAL PREPAREDNESS REPORT: ASSESSING THE STATE OF PREPAREDNESS

                              ----------                              


                        Wednesday, June 6, 2012

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 12:07 p.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Farenthold, Turner, and 
Clarke.
    Mr. Bilirakis. I believe it is afternoon. Good afternoon. 
The Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order.
    The subcommittee is meeting today to receive testimony on 
the state of our Nation's preparedness.
    I now recognize myself for an opening statement.
    At the start of another hurricane season and with no 
evidence that the terrorist threat to the United States will 
decline, it is important that this subcommittee has an accurate 
picture of the level of preparedness across the country. 
Anecdotally, we are all aware of advancements made in 
preparedness. One need only look at the responses to the 
tornadoes in Joplin and Hurricane Irene to see evidence of 
enhanced preparedness and response capabilities at the State 
and local levels. However, there is more to the story, and it 
is my hope that the recently released National Preparedness 
Report will help us gain a better understanding of the work 
that remains to be done to ensure a prepared and resilient 
Nation.
    It is important to note that this National Preparedness 
Report has been a long time coming. Section 652 of the Post-
Katrina Emergency Management Reform Act requires the annual 
completion of a Federal preparedness report to assess National 
preparedness. The PPD-8, signed by President Obama in March 
2011, further required the completion of a report assessing 
National preparedness. The first such report was completed in 
January 2009; however, another report was not completed until 
the National Preparedness Report was released last month.
    There is no doubt that we have made great strides in our 
level of preparedness since September 11 and Hurricane Katrina. 
However, we must have the ability to measure that preparedness 
to determine steps still necessary to achieve core 
capabilities. It is my hope that this National Preparedness 
Report will mark the beginning of an annual assessment, as 
required by the PKEMRA, one that includes validated information 
received through surveys of stakeholders and that truly 
includes the input of the whole community.
    I am pleased that Deputy Administrator Manning is here 
today to explain the methodology behind the report and how the 
report's findings, coupled with needed performance measures for 
the grant programs, will help inform efforts going forward to 
enhance core capabilities at the Federal, State, and local 
levels and with our nonprofit and private-sector partners. I 
hope that this will provide us with the frank assessment of the 
shortcomings identified in the report and the ways in which 
FEMA, working with the whole community, plans to address them.
    I am particularly interested in the perspectives on this 
report of our experts on the second panel and from GAO. What 
are the strengths of this report, and how could future 
iterations be enhanced to provide a better picture of where we 
stand and where we need to go in the future?
    With that, I welcome all our witnesses, and I look forward 
to your testimony on this very important topic.
    Now I will recognize the Ranking Member, Mr. Hansen Clarke 
from Michigan, for any statement he may like to make. You are 
recognized, sir.
    Mr. Clarke. Thank you, Mr. Chairman. It is an honor for me 
to serve with you today as the Ranking Member of this 
subcommittee for this hearing.
    I want to thank the Chairman for holding this hearing to 
examine the findings of the National Preparedness Report. It is 
very important. It is important to me because I represent 
metropolitan Detroit, and since I have been in Congress the 
past year and a half, I have been a strong advocate for more 
funding for the Urban Areas Security Initiative and also for 
the Assistance to Firefighters Grants. We actually need this 
type of investment, and that is because our State and our local 
units of government, they don't have the revenue to be able to 
provide for the staffing and the equipment that we need to 
better protect our people.
    Now, I am pleased that the Department of Homeland Security 
appropriations bill that we will be voting on soon, this week, 
in the House does contain an additional $400 million in 
additional funding to State and local grant programs. However, 
over the past few years, there has just been too much money cut 
out of the Assistance for Firefighters Grant program, and I 
think we need--in fact, I know we have to restore that funding.
    Congress really needs to do much more to better protect our 
State and local communities, and I will tell you why. It is 
because Congress did not adequately regulate and monitor the 
housing crisis. That is the cause of why the cities and States 
don't have the revenue right now to help better protect their 
people. The housing crisis forced many families out of their 
homes, depressed property values, and overall dramatically 
reduced the tax base of many cities and States. So, as a 
result, they have less money to count on right now to better 
invest in National preparedness for their local communities and 
States.
    I look forward to the testimony of Deputy Administrator 
Manning and also Mr. Czerwinski, especially your comments and 
insight, Mr. Czerwinski, on how the recently released National 
Disaster Recovery Framework could help better prepare 
communities to recover from natural disasters and emergencies, 
especially small businesses that need help reopening or 
families who are displaced when their house is burnt down or 
blown away, how they can get new housing again in a prompt 
fashion without having to spend more money that they have 
likely lost because of the emergency.
    Also, I am interested to hear from both of you on how we 
can better improve our cybersecurity capabilities. As you are 
aware, the full Committee on Homeland Security recently 
considered legislation on this issue. I don't feel that it went 
far enough to protect us from cybersecurity threats. I would 
like to know how you believe that we could strengthen the bill 
that was reported out of this committee or other committees to 
better protect us from cybersecurity threats.
    Before I yield back my time, I want to again thank Chairman 
Bilirakis for being thoughtful, conscientious. He understands 
the importance of keeping our country strong, investing in 
National preparedness. The fact that he is holding this 
hearing, again, just underscores his insight and why it is 
really a joy to work with him on this subcommittee.
    With that, I yield back the balance of my time.
    Mr. Bilirakis. Thank you. I appreciate it. Thanks for the 
nice comments.
    I ask unanimous consent to insert in the record a letter 
from the BuildStrong Coalition.
    Without objection, so ordered.
    [The information follows:]
                 Letter From the BuildStrong Coalition
                                      June 6, 2012.
The Honorable Gus Bilirakis,
Chairman, Subcommittee on Emergency Preparedness, Response, and 
        Communications, Committee on Homeland Security, U.S. House of 
        Representatives, H2-176 Ford House Office Building, Washington, 
        DC 20515.
    Dear Chairman Bilirakis: The BuildStrong Coalition would like to 
thank you, Ranking Member Richardson, and the Subcommittee on Emergency 
Preparedness, Response, and Communications for holding today's hearing 
on preparedness as we enter the 2012 Hurricane Season.
    BuildStrong is coalition of National business and consumer 
organizations, companies, and emergency management officials dedicated 
to promoting stronger building codes to help communities withstand 
major natural disasters while saving lives and taxpayer money at the 
same time.
        building codes save lives, property, and taxpayer money
    Overwhelming evidence exists to demonstrate that the adoption and 
enforcement of State-wide building codes saves lives and greatly 
reduces property damage and the need for Federal assistance resulting 
from disasters. The Louisiana State University Hurricane Center 
estimated that stronger building codes would have reduced wind damage 
from Hurricane Katrina by 80%, saving $8 billion.
    In 2005, FEMA commissioned a study by the National Institute of 
Building Sciences' Multihazard Mitigation Council. The goal of the 
study, based on the work of more than 50 National experts, was to 
``assess the future savings from hazard mitigation activities.'' 
According to the study, every $1 spent on hazard mitigation (actions to 
reduce disaster losses) provides the Nation with about $4 in future 
benefits.
    A study done for the Insurance Institute for Business & Home Safety 
(IBHS) found that losses from Hurricane Andrew, which struck south 
Florida in 1992 and caused more than $20 billion (in today's dollars) 
in insured damage, would have been reduced by 50 percent for 
residential property and by 40 percent for commercial property if those 
structures were built in accordance with Florida's 2004 State-wide 
building code. Another IBHS study following Hurricane Charley in 2004 
found that modern building codes reduced the severity of property 
losses by 42 percent and the frequency of losses by 60 percent.
    More valuable research is currently being conducted by the IBHS at 
their new lab in Richburg, South Carolina. This research already has 
clearly demonstrated how the human and financial costs of natural 
disasters can be greatly reduced by building stronger homes. With 
relatively simple upgrades in construction such as strapping to create 
a continuous load path from the roof, through the walls, and into the 
foundation, thicker roof decking, and textured, rather than smooth 
nails, test homes were built to withstand 110 mile-per-hour winds with 
little damage. Test homes with the same floor plan that were not 
upgraded, were completely destroyed at wind speeds of only 95 mph to 
100 mph. Taking steps to prepare in these ways before a disaster has a 
real effect.
    Despite this correlation, most States have not enacted State-wide 
building codes and related inspection and enforcement measures. State 
standards for construction, code-related inspection, and enforcement 
vary widely across the country. Where State-wide codes exist, it is not 
uncommon to allow individual jurisdictions (e.g., cities of a 
particular class, or counties) to deviate from the State standards, 
occasionally resulting in a weakening of the model minimum standards.
    Model building codes govern all aspects of construction and help to 
protect homes and buildings from the devastating effects of natural 
catastrophes. Uniform, State-wide adoption and enforcement of model 
building codes by States helps to significantly reduce long-term risks 
affecting people, property, the environment, and ultimately the 
economy. The model codes, developed Nationally in the United States by 
a consensus process involving construction experts and local building 
officials working together, are adopted and enforced at the State level 
to mitigate effects of natural disaster perils inherent to each State.
                  the safe building code incentive act
    The BuildStrong Coalition strongly supports H.R. 2069, The Safe 
Building Code Incentive Act, legislation providing States with 
additional disaster relief funding if they enact modern building codes.
    The Safe Building Code Incentive Act would create a financial 
incentive for States that have adopted and enforce State-wide building 
codes. Under the proposed law, States that adopt and enforce Nationally 
recognized model building codes for residential and commercial 
structures would qualify for an additional 4 percent of funding 
available for post-disaster grants. The program would be administered 
by the Federal Emergency Management Agency.
    Sixteen States currently enforce building codes that would already 
qualify for the additional 4 percent funding. Another 15 States would 
qualify with minor changes to current laws and regulations. As stated 
prior, this legislation will not require any additional appropriation 
to FEMA since it draws funds from the existing Disaster Relief Fund. In 
addition, the nature of the incentive does not mandate the adoption of 
State-wide building codes on any States that wish to maintain their 
current patchwork structure.
    The evidence supporting mitigation benefits proves this incentive 
to be a fiscally responsible method of enabling FEMA to assist in 
natural disaster recovery while working to prevent future damage. The 
Safe Building Code Incentive Act is a forward-thinking, mitigation-
focused legislative proposal that will display Congress's leadership in 
the midst of a heightened natural catastrophe year.
                               conclusion
    While mitigation will not prevent natural catastrophes, stronger 
homes and businesses will save private property, Federal funds, 
environmental damage and insurance claims paid. Further, building codes 
contribute to the resiliency of a community and the ability of a 
community to ``bounce back'' from a hazard event. As a community begins 
the recovery process, the quicker businesses can return to full 
operation and citizens can return to their daily lives, the greater 
ability the local economy has to recover and lessen the burden on 
assistance providers. Most importantly, stronger homes and businesses 
save lives.
    Again, BuildStrong would like to thank Chairman Bilirakis, Ranking 
Member Richardson, and the Subcommittee on Emergency Preparedness, 
Response, and Communications for holding this important hearing.
            Sincerely,
                                               Jimi Grande,
                                   Chairman, BuildStrong Coalition.

    Mr. Bilirakis. Other Members of the subcommittee are 
reminded that opening statements may be submitted for the 
record.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                              May 6, 2012
    Good morning. I would like to thank the witnesses for being here 
today to discuss the long-awaited National Preparedness Report.
    Reviewing the report, I was encouraged to learn that State and 
local governments have made significant progress in the areas of all-
hazards planning, interoperable communications, and public health and 
medical services.
    This report proved what many of us on this side of the aisle have 
been saying for quite some time: Targeted Homeland Security grants 
work.
    When we target our resources to address gaps in capabilities, we 
become more prepared.
    That said, having witnessed the suffering Hurricane Katrina 
brought, I was disturbed to learn that we have made little progress in 
developing the capabilities necessary to implement robust long-term 
recovery plans.
    The National Preparedness Report indicates that States are less 
than half-way to achieving their preparedness capability objectives to 
ensure long-term recovery for economic activity, natural and cultural 
resources, and housing.
    The Report candidly notes that recovery capabilities saw little 
investment by way of Federal grant dollars.
    But funding is only part of the problem.
    Over the past 3 years, the Government Accountability Office has 
issued a series of reports exploring the challenges of long-term 
recovery projects and identifying lessons learned from previous 
recovery efforts.
    In particular, the GAO has indicated that confusion among 
stakeholders and the Federal Coordinator regarding their roles and 
functions during recovery efforts and a lack of clarity regarding 
decision-making authority have historically hindered successful 
recovery efforts.
    In each report, the GAO has recommended strategies to address gaps 
in recovery capabilities, from facilitating better public-private 
partnerships to improve economic recovery to improving the 
effectiveness and efficiency of Public Assistance Grant program.
    I understand that many of GAO's recommendations are addressed in 
the National Disaster Recovery Framework.
    While it appears that some progress has been made, it is unclear 
whether additional movement forward is likely.
    I am mindful of NEMA's report which finds that funding has been 
relatively flat at State and local emergency management agencies.
    In most places, these agencies plan and oversee long-term recovery 
efforts.
    And given the discussion on long-term recovery, I would be remiss 
if I did not briefly mention the findings in a GAO report released last 
week on FEMA's Disaster Assistance Workforce.
    It found that FEMA lacks hiring standards for Disaster Assistance 
Employees, who comprise 57 percent of FEMA's workforce and play a major 
role in recovery efforts.
    GAO also found that FEMA does not provide DAEs with uniform 
training.
    Without uniform hiring standards and uniform training, it should 
come as no surprise that DAEs do not have uniform skill sets.
    Yet, even more troubling is GAO's finding that FEMA lacks a uniform 
process for monitoring how DAEs implement disaster policies from region 
to region.
    In light of gaps in recovery capabilities identified in the 
National Preparedness Report, the GAO's findings regarding DAEs are 
particularly concerning.
    I will be interested to learn how FEMA intends to address the long-
term recovery issues.
    I look forward to the testimony of the witnesses and yield back the 
balance of my time.

    Mr. Bilirakis. I am pleased to welcome now our first panel 
of witnesses.
    Our first witness is Mr. Tim Manning. Mr. Manning is FEMA's 
Deputy Administrator for Protection and National Preparedness, 
a position to which he was confirmed by the U.S. Senate on May 
6, 2009. Prior to joining FEMA, Administrator Manning served as 
secretary of the New Mexico Department of Homeland Security and 
homeland security advisor to Governor Richardson. Mr. Manning 
has served as a firefighter and emergency medical technician. 
He earned his bachelor's of science degree in geology from 
Eastern Illinois University and is a graduate of the Executive 
Leaders Program at the Center for Homeland Defense and Security 
at the Naval Postgraduate School.
    Following Administrator Manning, we will receive testimony 
from Mr. Stanley Czerwinski. Mr. Czerwinski is the director of 
intergovernmental relations at the U.S. Government 
Accountability Office. Prior to this position, he served as 
GAO's comptroller and as the director or assistant director for 
various issues. Prior to joining GAO, Mr. Czerwinski worked at 
both the Congressional Research Service and Congressional 
Budget Office. He has a master's degree in public 
administration from the University of Massachusetts and a 
bachelor's degree from Wesleyan University in Connecticut.
    Welcome. Your entire written statements will appear in the 
record. I ask that you each summarize your testimony for 5 
minutes.
    Administrator Manning, you are now recognized. Thank you, 
sir.

    STATEMENT OF TIMOTHY W. MANNING, DEPUTY ADMINISTRATOR, 
    PROTECTION AND NATIONAL PREPAREDNESS, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Manning. Thank you, Mr. Chairman. Good morning, Members 
of the committee.
    Mr. Bilirakis. Good morning.
    Mr. Manning. I am Tim Manning, FEMA's Deputy Administrator 
for Protection and National Preparedness. On behalf of 
Secretary Napolitano and Administrator Fugate, I thank you for 
the invitation to testify today.
    Since the September 2001 terrorist attacks, we have made 
significant and measurable strides toward improving 
preparedness for all hazards, including terrorism, natural 
disasters, and technological hazards. This administration 
arrived recognizing the significant progress that had been made 
in improving the Nation's preparedness since September 2001. We 
also recognized that we lacked the measuring systems and, in 
many cases, the data that would allow us to answer definitively 
the question we are being asked by the American people: Are we 
better prepared?
    We are better prepared. Based on our work, we can better 
articulate what we are prepared for and where our capabilities 
lie. For example, Federal, State, and local governments have, 
since 2001, built a network of specialized teams capable of 
interdicting and disrupting a variety of imminent threats. That 
network includes over a thousand hazardous materials response 
teams, 5,400 SWAT teams, and 469 FBI-trained and accredited 
bomb teams. Prior to 2001, major population centers in many 
parts of the country lacked advanced structural collapse and 
urban search and rescue capabilities. Today, 97 percent of the 
Nation's population is within a 4-hour response drive time of 
an urban search and rescue team.
    The National Preparedness Report developed pursuant to 
``Presidential Policy Directive 8: National Preparedness'' and 
the Post-Katrina Emergency Management Reform Act was recently 
submitted to the President and provided to Congress. In 
preparing the report, FEMA worked with a wide range of 
community partners and individuals to identify quantitative and 
qualitative performance and assessment data. Data were 
integrated from the 2011 State preparedness reports, and we 
conducted our own research into independent evaluations, 
surveys, and other supporting data related to those core 
capabilities.
    Key findings and insights on critical preparedness issues 
were identified, including areas of progress and where areas 
for improvement remain. A number of broad trends emerged.
    First, the Nation has developed areas of National strength 
in several core capabilities, particularly in cross-cutting 
common capabilities and those that support responses to 
disasters, including: planning; operational coordination; 
intelligence and information sharing; environmental response, 
health, and safety; mass search and rescue operations; 
operational communications; and public health and medical 
services.
    Second, Federal preparedness assistance programs have 
helped build and enhance State and local, Tribal, and 
territorial capabilities. Federal grants have clearly 
contributed to the capability gains achieved since 9/11.
    Third, identified areas of National strength align with the 
investments made using Federal assistance. The most progress 
has been made in capabilities identified as high priorities by 
our State and local partners. Since 2006, Federal grantees have 
used over $7 billion in preparedness assistance from the 
Department of Homeland Security to support those core 
capabilities identified as areas of National strength, 
particularly public health and medical services, operational 
communications and planning. Conversely, some core capabilities 
identified as needing improvement have not historically 
received significant investment by grantees, particularly 
recovery-focused and cybersecurity-focused core capabilities.
    Fourth, the Nation has made demonstrable progress in 
addressing areas for improvement identified after September 11 
and Hurricane Katrina.
    The former identified challenges in multidisciplinary 
operational coordination, and, as a result, the National 
Incident Management System, or NIMS, was adopted as the common 
doctrine for incident management across the country, and more 
than 4 million community partners have received some form of 
NIMS training. All States, Tribes, and territories now report 
complete compliance with NIMS.
    The 9/11 attacks also revealed limited information sharing 
of actionable intelligence across the Government and within the 
private sector. Development of a National network of fusion 
centers, joint terrorism task forces, and standardized policies 
and procedures for sharing suspicious activity reports have 
greatly improved our capabilities in this area.
    Both events identified difficulties in communications 
interoperability within and across jurisdictions. With 
significant support from Congress, high-risk urban areas 
throughout the Nation have built and demonstrated the 
capability to achieve full-response-level interoperable 
communications within 1 hour of an emergency.
    These examples represent measurable outcomes in our 
National effort toward increased preparedness and have 
demonstrated their value in real-world events.
    The National Preparedness Report represents a step forward 
in our efforts to assess overall National preparedness and 
serves as a baseline evaluation of the progress made toward 
building, sustaining, and delivering the core capabilities 
described in the National Preparedness Goal. Future efforts 
will focus on developing measures and assessment methodologies 
that will guide the annual development of the National 
Preparedness Report.
    Mr. Chairman, thank you for the opportunity to testify 
today, and I am happy to answer any questions the committee may 
have.
    [The statement of Mr. Manning follows:]
                Prepared Statement of Timothy W. Manning
                              June 6, 2012
    Mr. Chairman and Members of the subcommittee, good morning. I am 
Timothy Manning, deputy administrator for protection and national 
preparedness at the Department of Homeland Security's (DHS) Federal 
Emergency Management Agency (FEMA). On behalf of Secretary Napolitano 
and Administrator Fugate, I thank you for the invitation to testify 
today on the state of our Nation's preparedness.
    We appreciate the committee's continued interest in and support for 
National preparedness. We also appreciate your interest in defining and 
measuring the progress we have made over more than a decade of 
considerable effort.
    Since the September 2001 terrorist attacks, we have made 
significant and measurable strides toward improving preparedness for 
the hazards faced by all levels of government and all segments of 
society. We have improved our preparedness for the threats posed by 
those who wish to bring us harm as well as for the myriad natural and 
technological hazards that face our communities face every day.
    This administration came into office recognizing the significant 
progress that had been made in improving the Nation's preparedness 
since September 2001 and cognizant of the need to better understand and 
explain that progress--both qualitatively and quantitatively. As former 
first responders, local emergency managers and State homeland security 
officials, Administrator Fugate, Deputy Administrator Serino and I 
understood that the investments made by the American people over nearly 
a decade have significantly improved the capabilities and readiness of 
our police, fire-fighters, emergency medical technicians, public health 
workers, and other first responders. But we also recognized that we 
lacked the measuring systems and, in many cases, the data that would 
allow us to answer the question we were being asked by Congress, by the 
President, and by the American people: Are we better prepared now than 
we were on September 11, 2001?
    We are better prepared, and based on our work over the past few 
years we can better articulate what we are prepared for and where our 
capabilities reside. To cite just a few examples:
  <bullet> In the 4 years between 2006 and 2010, the proportion of 
        States and urban areas that were confident in the effectiveness 
        of their emergency operations plans increased from 40 percent 
        to more than 75 percent;
  <bullet> Commercial radio broadcasters, in partnership with FEMA, 
        today can deliver public warning messages to more than 84 
        percent of the U.S. population, up from 67 percent in 2009. By 
        the end of 2013, coverage is expected to expand to more than 90 
        percent of the population;
  <bullet> Since 2001, Federal, State, and local governments have built 
        a network of specialized teams capable of interdicting and 
        disrupting a variety of imminent threats. That network includes 
        1,100 Hazardous Materials Response Teams, 5,400 SWAT teams, and 
        469 FBI-trained and accredited bomb squads;
  <bullet> Prior to the Sept. 11 terrorist attacks, major population 
        centers in many parts of the country lacked structural collapse 
        and urban search-and-rescue capabilities. Today, 97 percent of 
        the Nation is within a 4-hour drive of an urban search-and-
        rescue team; and
  <bullet> Government agencies at all levels have improved their 
        strategic and tactical communications planning and 
        coordination. In 2006, only 42 percent of the Nation's urban 
        areas had a strategic plan in place to guide interoperable 
        communications. Today, 100 percent of the Nation's highest-risk 
        urban areas are capable of establishing response-level 
        interoperable communications within 1 hour of an event 
        involving multiple jurisdictions and agencies.
    But preparedness is not an end-state; it is a process. As the 
threats and hazards we face as a Nation emerge and evolve, so too must 
the capabilities and resources we need to address those threats and 
hazards. Similarly, we must sustain those capabilities that prepare us 
for the enduring threats and hazards we face. We increasingly 
understand where we have additional work to do--and we now have a 
system in place to help us focus on those areas.
    In March 2011, President Obama signed Presidential Policy Directive 
8: National Preparedness (PPD-8), which describes the Nation's approach 
to preparing for the threats and hazards that pose the greatest risk to 
the security of the United States. This Directive required the 
establishment of a National Preparedness Goal--an overall target that 
the entire Nation will strive to achieve; the development of a National 
Preparedness System to provide the processes for achieving the Goal and 
for measuring our collective progress along the way; and an annual 
National Preparedness Report to summarize progress.
    The National Preparedness Goal delivered to the President in 
October 2011 describes 31 core capabilities--identified and defined 
through a collaborative process involving Federal departments and 
agencies, State and local government officials, and individuals from 
across the entire community--that we as a Nation must build and sustain 
in order to prevent, protect against, mitigate, respond to, and recover 
from the threats and hazards that pose the greatest risk to the Nation. 
Those capabilities include activities such as intelligence and 
information sharing; screening, search, and detection; vulnerability 
reduction; mass care services; housing; and economic recovery, to name 
just a few.
    The National Preparedness System, described in a report submitted 
to the President in November 2011, is a process for achieving the 
National Preparedness Goal. It is best described as an on-going cycle 
which begins with identifying and assessing the risks a jurisdiction 
faces and then proceeds to include an estimating the capabilities 
needed to address those risks, building or sustaining the required 
levels of capability, developing and implementing plans to deliver 
those capabilities, validating and monitoring progress, and reviewing 
and updating efforts to promote continuous improvement.
                    the national preparedness report
    The product of that validation and monitoring process is the 
National Preparedness Report, which we recently submitted to the 
President and provided to Congress. In preparing the report, FEMA 
worked with a range of community partners--including all levels of 
government, private and nonprofit sectors, faith-based organizations, 
communities, and individuals to identify quantitative and qualitative 
performance and assessment data for each of the 31 core capabilities 
described in the National Preparedness Goal. In addition, FEMA 
integrated data from the 2011 State Preparedness Reports (SPRs), State-
wide self-assessments of core capability levels submitted by all 56 
U.S. States and territories through a standardized survey. Finally, 
FEMA staff conducted their own research to identify recent, independent 
evaluations, surveys, and other supporting data related to those core 
capabilities.
    Our synthesis, review, and analysis of those data sources resulted 
in several key findings and insights on critical preparedness issues, 
including areas where the Nation has made progress and where areas for 
improvement remain. During our analysis of the data on the core 
capabilities, a number of broad trends in National preparedness 
emerged:
    First, the Nation has developed areas of National strength in 
several core capabilities, particularly in cross-cutting, common 
capabilities and those that support responses to disasters. 
Preparedness capabilities have improved significantly since 2001, as a 
result of concerted effort through planning, organization, equipment, 
training, exercises, and dedicated funding provided by Congress, 
States, Tribes, territories, and localities. Some areas of strength 
pre-date the September 11, 2001 
(9/11) terrorist attacks, while others have developed in the years 
since. Areas of overall National strength as identified in the National 
Preparedness Report include:
  <bullet> Planning;
  <bullet> Operational Coordination;
  <bullet> Intelligence and Information Sharing;
  <bullet> Environmental Response/Health and Safety;
  <bullet> Mass Search and Rescue Operations;
  <bullet> Operational Communications; and,
  <bullet> Public Health and Medical Services.
    These strengths involve contributions from across the whole 
community. State, local, Tribal, and territorial partners have built a 
network of multi-disciplinary capabilities that they use to manage the 
vast majority of emergencies. When disasters strike, Federal partners, 
the private and nonprofit sectors, faith-based organizations, and the 
public stand ready to augment existing State, local, Tribal, and 
territorial response capabilities and to help provide many of the 
essential services outlined in the core capabilities.
    Second, Federal preparedness assistance programs have helped build 
and enhance State, local, Tribal, and territorial capabilities through 
multi-year grant investments across mission areas. Federal preparedness 
assistance has clearly contributed to the capability gains achieved 
since 9/11, and partner organizations from across the whole community 
rely on Federal preparedness grants from a number of Federal 
Departments and Agencies to build core capabilities. DHS' Homeland 
Security Grant Program includes a suite of programs designed to support 
the building and maintaining of core capabilities, and Health and Human 
Services' preparedness grant programs administered by the Assistant 
Secretary for Preparedness and Response (ASPR) and the Centers for 
Disease Control and Prevention (CDC) support State, local, and 
territorial jurisdictions in improving public health and health care 
preparedness.
    Third, areas of National strength align with the investments made 
using Federal assistance programs, and the most progress has been made 
in capabilities identified as high priorities. Since 2006, Federal 
grantees have used more than $7.3 billion in preparedness assistance 
from DHS to support the core capabilities identified in the National 
Preparedness Report as areas of National strength, specifically Public 
Health and Medical Services, Operational Communications, and Planning.
    Conversely, some core capabilities identified as needing 
improvement have not historically received significant investments by 
grantees via preparedness grants. For example, while Federal grant 
programs have increasingly sought to emphasize the importance of cyber 
preparedness in recent years, State and local grant-funded investments 
aligned with the cybersecurity core capability have been minimal. 
Similarly, States and local jurisdictions have invested less than 1 
percent of DHS non-disaster preparedness assistance from fiscal year 
2006 to fiscal year 2010 in recovery-focused capabilities.
    The link between investment and improved capability also reflects 
the priority placed on each capability by State and local governments. 
In the 2011 State Preparedness Report, States were asked to rate each 
of the core capabilities as being a high, medium, or low priority. 
Operational Communications, Operational Coordination, Public Health, 
and Medical Services and Planning were four of the top-five-listed 
high-priority capabilities and each aligns to National strengths and is 
an area in which States reported relatively more progress toward 
achieving preparedness goals. Similarly, two of the lowest-priority 
capabilities identified in the State Preparedness Report, Health and 
Social Services and Natural and Cultural Resources, fall within the 
Recovery mission area and are identified as areas in which States 
reported less progress toward achieving preparedness goals. One 
interesting finding in the State Preparedness Report data is that while 
approximately two-thirds of States identified housing, economic 
recovery, and cybersecurity as high-priority capabilities, they also 
reported being the least prepared in those areas. These results further 
underscore that cyber-security and the recovery-focused core 
capabilities should be areas for future emphasis and investment.
    Fourth, the Nation has made demonstrable progress in addressing 
areas for improvement identified after 9/11 and Hurricane Katrina. Both 
the 9/11 attacks and Hurricane Katrina highlighted gaps in preparedness 
activities Nation-wide and served as catalysts for change. The 9/11 
Commission and the White House after-action review of the Federal 
response to Hurricane Katrina identified dozens of recommendations. For 
example, the 9/11 attacks identified challenges in conducting multi-
disciplinary operational coordination on-site at incidents and among 
operations centers. As a result, the National Incident Management 
System (NIMS) was adopted as the common doctrine for incident 
management, and more than 4 million whole community partners have 
received some form of NIMS training. All States, Tribes, and 
territories now report compliance with NIMS.
    Hurricane Katrina also revealed significant weaknesses in 
catastrophic emergency planning. As a result, National planning-related 
guidance was developed and funding was directed to this capability. 
Subsequent Nation-wide Plan Reviews have demonstrated significant 
improvements in State and urban area confidence in their catastrophic 
plans.
    The 9/11 attacks also revealed limited information sharing of 
actionable intelligence across the Government and with the private 
sector. Development of a National network of fusion centers, Joint 
Terrorism Task Forces, and standardized policies and processes for 
sharing suspicious activity reports have greatly improved this 
preparedness activity.
    Similarly, both the 9/11 attacks and Hurricane Katrina identified 
difficulties in communications interoperability within and across 
jurisdictions. In ensuing years and with significant support from 
Congress through the Public Safety Interoperable Communications and 
other grant programs, high-risk urban areas throughout the Nation have 
demonstrated the capability to achieve full response-level 
interoperable communications within 1 hour of an emergency.
    Finally, decision-makers in the public and private sectors 
increasingly are using risk analysis to shape and prioritize 
preparedness activities across mission areas. PPD-8 and the Goal 
emphasize the important role that risk--defined simply as the potential 
for an unwanted outcome--plays in informing preparedness activities. 
Faced with a range of threats and hazards and constrained by available 
resources, whole community partners are increasingly using risk 
analyses to inform policy and programmatic decisions across all five 
preparedness mission areas.
    For example:
  <bullet> Federal interagency partners conducted a Strategic National 
        Risk Assessment to help identify potential incidents that pose 
        the greatest threat to the Nation and to inform the development 
        of core capabilities and targets in the Goal;
  <bullet> DHS developed an annual National Risk Profile for the 
        Nation's critical infrastructure, describing risks facing the 
        Nation's infrastructure sectors and supporting public- and 
        private-sector risk management decisions;
  <bullet> Traditional mitigation planning has broadened to include 
        both natural hazards and terrorist threats in order to identify 
        a comprehensive suite of potential mitigation actions;
  <bullet> State and local public health departments are required to 
        use jurisdictional risk assessments to prioritize capability 
        enhancements through preparedness assistance from HHS ASPR and 
        CDC;
  <bullet> Risk analysis informs eligibility criteria for preparedness 
        assistance, including the State Homeland Security Program, 
        Urban Areas Security Initiative, Port Security Grant Program, 
        Transit Security Grant Program, and the CDC Public Health 
        Emergency Preparedness cooperative agreement program;
  <bullet> On-going efforts to implement the National Preparedness 
        System, as called for in PPD-8, further emphasize the 
        importance of risk analyses in driving preparedness activities. 
        The National Preparedness System emphasizes the need to 
        identify and assess risks in order to guide efforts to develop, 
        maintain, and assess core capabilities; and
  <bullet> States are required to conduct Threat and Hazard 
        Identification and Risk Assessments (THIRA) as a condition of 
        receiving most preparedness grant funding and set hazard-based 
        targets as the context for their State Preparedness Report 
        capability assessments.
    The requirement that States conduct a THIRA as a condition of 
receiving preparedness grant funding, has become the source of much 
discussion over the past few months. I would like to take a few moments 
to clarify what THIRAs will--and will not--be used for.
    Moving forward, States and territories will be required to conduct 
Threat and Hazard Identification and Risk Assessments (THIRA) as a 
condition for receiving homeland security grants. The THIRA process 
provides a comprehensive approach for identifying and assessing risks 
and associated impacts. It expands on existing local, Tribal, 
territorial, and State Hazard Identification and Risk Assessments 
(HIRAs) and other risk methodologies currently used by broadening the 
factors considered in the process, incorporating the whole community 
throughout the process, and accounting for important community-specific 
characteristics.
    The use of risk analysis is a long-standing and important first 
step in the emergency management community. State and local governments 
are very familiar with the use of Hazard Identification and Risk 
Assessments to help them drive investments in mitigation activities. 
The THIRA process is very similar, but adds a terrorism component to 
account for the possibility of deliberate threats.
    The THIRA process is a step-by-step analysis that can be used by 
emergency management offices in small towns and by large urban areas 
with access to advanced analytical capabilities. While the level of 
detail may be greater for an urban area than for a rural community, the 
methodology for both will be similar and both will have, as a result, a 
comparable foundation for informed decision making. Critical to the 
security and resilience of our communities is knowledge of the level of 
capabilities needed to prevent, protect against, mitigate, respond and 
recover from our greatest risks. Using THIRA results, communities will 
gain a greater understanding of their risk landscape and can therefore 
evaluate current capabilities against known threats and hazards and 
identify resources available to meet the identified needs. By 
estimating their resource requirements, jurisdictions can make 
decisions about how they will effectively use their resources to 
deliver core capabilities toward their community's greatest risk. The 
THIRAs and assessments such as State Preparedness Reports will identify 
gaps in preparedness at the State and local levels and drive investment 
towards building and sustaining core capabilities to address those 
gaps.
    Based on the assessments of what we've achieved and what we have 
yet to accomplish, and in light of the National Preparedness Goal and 
System, we proposed a new National Preparedness Grant Program to re-
align existing grant programs to focus on sustaining capabilities 
developed, building new capabilities to fill the identified gaps, 
preventing terrorism, protecting critical transportation and port 
infrastructure, and other key resources. We propose to do this by 
consolidating programs, streamlining the application process and better 
focusing our efforts.
                               conclusion
    With the October 2011 release of the National Preparedness Goal, 
the Nation is transitioning to a refined set of core capabilities. As a 
result, whole community partners are updating their efforts to collect, 
analyze, and report preparedness progress according to the core 
capabilities identified in the Goal. The 2012 National Preparedness 
Report therefore relies on a range of existing assessment approaches 
and associated quantitative and qualitative data to present the 
Nation's preparedness progress and to report key findings. Assessment 
processes, methodologies, and data will evolve in future years to align 
more directly with the Goal and its capabilities. Efforts are already 
underway to refine the Goal's capabilities and preliminary targets; 
future efforts will focus on developing agreed-upon measures and 
assessment methodologies that will guide the annual development of the 
National Preparedness Report.
    Since the release of the 2012 National Preparedness Report, we have 
begun to embark on an outreach campaign to engage whole community 
stakeholders in a discussion of the current findings and solicit input 
for future reports. We expect to receive substantial feedback from 
State, local, Tribal, and territorial stakeholders, as well as the 
private and non-profit sectors on the findings from the National 
Preparedness Report and areas for improvement. To broaden this outreach 
effort, we are using social media including on-line collaboration 
forums to solicit ideas on areas for improvement identified in the NPR. 
These areas include cybersecurity, recovery-focused core capabilities, 
access and functional needs, and supply chain interdependencies.
    The National Preparedness Report represents a step forward in 
efforts to assess overall National preparedness. Informed by inputs 
from across the whole community, the 2012 National Preparedness Report 
serves as a baseline evaluation of the progress made toward building, 
sustaining, and delivering the core capabilities described in the Goal. 
Building on these efforts, the vision for future Reports is to 
establish a routine, repeatable process that engages whole community 
partners.
    To achieve the National Preparedness Goal, the Nation must continue 
to build on the significant progress we have made to date and to 
address areas identified for improvement. To do so, we will continue to 
engage whole community partners as we revise and develop the National 
Preparedness Frameworks and Federal Interagency Operations Plans called 
for in PPD-8. The components of the National Preparedness System will 
provide a consistent and reliable approach to support decision-making, 
resource allocation, and on-going performance assessment.
    Thank you for the opportunity to testify, and I am happy to answer 
any questions the committee may have.

    Mr. Bilirakis. Thank you, Mr. Manning.
    Mr. Czerwinski, you are recognized for 5 minutes.

STATEMENT OF STANLEY J. CZERWINSKI, DIRECTOR, INTERGOVERNMENTAL 
        RELATIONS, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Czerwinski. Thank you, Mr. Chairman. I am pleased to be 
here today to talk about GAO's work looking at long-term 
recovery.
    In the aftermath of Hurricane Katrina, the Congress asked 
GAO to undertake a number of studies, including reviews of the 
Office of Federal Coordinator; HUD's Community Development 
Block Grant Program, CDBG; and FEMA's public assistance and 
long-term recovery efforts. Those reviews went up through 2010. 
What I would like to do is to highlight a few high-level themes 
and lessons from those today.
    The first one is that there are so many Federal agencies 
and programs, about 14 Federal agencies, over 60 programs, that 
have to come together for recovery. Sometimes they don't come 
together quite the way you want.
    For example, in Louisiana, after Katrina, the State had a 
Road Home Program that was geared toward rebuilding housing in 
the State. The plan of this program was to take money from CDBG 
and rebuild the houses and then match that up with money from 
hazard mitigation out of FEMA to elevate the houses. So the 
idea would be you would build the houses and put them on a 
safer plain for future floods. That never came to pass because 
of differences in the two programs' rules. That is just one 
example of how sometimes the Feds have a hard time making 
things match up.
    As you mentioned in your opening statement, another key 
player is State and local governments. So it is really 
important that the Federal Government work effectively with 
their State and local partners. Sometimes a really simple idea 
can turn out to work out very well.
    We have one for Mississippi, also after Katrina. What 
happened there was that FEMA and the State of Mississippi 
decided to collocate their staffs in Biloxi. Then the State of 
Mississippi used a grant from FEMA to procure an accounting 
system. This accounting system provided both the State and the 
Federal partners with real-time on-line accountability data for 
what was going on with their projects. What we found in looking 
at this is this dramatically improved the collaboration and 
coordination and had better decision-making.
    The third point that I want to talk about is that sometimes 
it is really important just to take a step back from what you 
are doing and ask, is what I am doing accomplishing what I want 
it to do?
    We have an example from Kobe, Japan, on this. As you might 
recall, in 1995 a massive earthquake struck Kobe, Japan. Kobe 
is in what is called the Hyogo prefecture; that is the 
equivalent of a U.S. county. The idea that the Japanese had--
and this was a really good idea--was to say, you know, during a 
disaster and recovery from it, we want to put special attention 
to those populations with special needs. Their plan was for the 
elderly, to take them and put them in recovery areas, build 
units, provide all the services you need, self-contained to 
make it very simple.
    Then the Japanese had a good idea; they said, let's see how 
this worked. When they looked at it, they had a surprise. 
Because even though on a service level it really worked, it had 
some unintended consequences, and that is, they isolated the 
elderly population from the rest of their families. As you 
know, in the Japanese culture, the extended family is really 
important.
    The message in this is that sometimes when you take a step 
back and look at how well you did, the next time it helps you 
do better.
    In that same vein, the U.S. Congress--and you cited this in 
your opening statement, Mr. Chairman--required certain things 
for FEMA and others to do after Katrina so we could avoid 
future problems. One of those was to come up with a strategy 
for recovering from disasters. That requirement resulted in the 
National Disaster Recovery Framework, the NDRF.
    We have taken a look at the NDRF, and we think it is a 
really good first step, in that it contains all the points that 
I made. However, I want to emphasize the first step. Because 
behind that overall strategy, you need to have plans for how it 
is implemented. The contrast that I draw is between the 
National response framework and the National recovery 
framework. Behind the response framework, you have probably 500 
to 1,000 pages of detailed plans for what each agency is going 
to do. We haven't gotten there yet on recovery.
    In addition, even though it is nice to have plans, what you 
want to do then is you want to practice them, because that is 
how they become real, that is how people engage. Then you want 
to take a step back and evaluate them. Then once your 
evaluation shows you something, you say, well, what lesson did 
I learn? It sort of feeds back.
    So my point is that, on recovery, we are at a relatively 
early stage that could be greatly enhanced by further 
implementation plans, further practice, further evaluation, 
further revision from what we learn. If we do that, we believe 
we have the ability to really improve recovery from disasters 
in this country.
    That concludes my statement, Mr. Chairman. I am glad to 
respond to any questions that you have.
    [The statement of Mr. Czerwinski follows:]
              Prepared Statement of Stanley J. Czerwinski
                              June 6, 2012
                             gao highlights
    Highlights of GAO-12-813T, a testimony before the Subcommittee on 
Emergency Preparedness, Response, and Communications, Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    The many challenges and difficulties experienced in the wake of 
Hurricane Katrina and other catastrophes have led to considerable 
reflection on what lessons might be learned regarding disaster 
recovery. Congress has recognized the importance of improving the way 
our Nation approaches disaster recovery by including in the Post-
Katrina Emergency Management Reform Act of 2006 the requirement that 
FEMA develop a National Disaster Recovery Strategy. The administration 
has also placed a greater focus on recovery, as demonstrated by its 
development of the National Disaster Recovery Framework (NDRF) with the 
goal of helping Federal agencies and others to more effectively 
organize in order to promote recovery.
    GAO was asked to testify on themes from its previous work on 
disaster recovery that may assist the subcommittee in its oversight of 
disaster recovery issues.
What GAO Recommends
    In multiple reports between 2008 and 2010, we made several 
recommendations to FEMA and others addressing recovery challenges 
involving coordination, communication, and information sharing, among 
other topics. The NDRF is directly responsive to several of the 
recommendations contained in these reports. However, it will require 
the successful implementation of this framework in order to ultimately 
resolve these issues.
  disaster recovery.--selected themes for effective long-term recovery
What GAO Found
    From 2008 to 2010, GAO produced a body of work on disaster 
recovery, including reviews of the Federal Emergency Management 
Agency's (FEMA) Long-Term Community Recovery efforts, recovery lessons 
based on past experiences at home and abroad, the use of Community 
Development Block Grants and Public Assistance grants and the operation 
of the Office of the Federal Coordinator for Gulf Coast Rebuilding 
(OFC). Among other things, this work highlighted themes that are 
important to successful disaster recovery efforts. Three of these key 
themes are: (1) The need for clearly-defined recovery roles and 
responsibilities; (2) the importance of effective coordination and 
collaboration among recovery stakeholders; and (3) the value of 
periodic evaluation of, and reporting on, recovery progress.
    When recovering from a major disaster, having clearly defined and 
well-understood roles and responsibilities is a critical first step in 
coordinating and implementing the responsibilities of the various 
parties involved in the long-term recovery process. These roles, 
responsibilities, and lines of authority for all levels of Government 
must be clearly defined, communicated, and understood in order to be 
effective. GAO's previous work provides numerous examples of the 
challenges that result when this does not take place and, conversely, 
illustrations of benefits that can occur when it does. For example, 
GAO's 2009 review of the OFC found confusion and disagreements among 
key recovery stakeholders as well as with the Federal Coordinator 
himself regarding the office's appropriate scope and function. This 
confusion, accompanied by the lack of clear decision-making authority 
on the part of OFC, may have ultimately slowed down the resolution of 
some recovery problems.
    Recovery from a major disaster is a long, complex process that 
involves an extensive group of participants both across the Federal 
Government and at the State and local level. At least 14 Federal 
departments and agencies are responsible for administering dozens of 
recovery-related programs, many of which rely heavily on active 
participation by State and local government for their implementation. 
Because these parties are dependent on each other to accomplish 
recovery goals, effective coordination and collaboration is essential. 
GAO's past work has explored this issue in considerable detail. For 
example, in the wake of the 2008 Midwest floods, Federal, State, and 
local officials said that FEMA's facilitation of regular interagency 
meetings to coordinate Federal and State partners helped to identify 
and effectively leverage recovery resources, as well as identify 
coordination problems and other concerns.
    Finally, the collaboration between recovery partners can be 
enhanced by periodically evaluating and reporting on what worked, what 
can be improved, and what progress is still needed to address long-term 
recovery goals. This last step will assist decision makers, clients, 
and stakeholders to obtain the feedback needed to improve both the 
policy and operational effectiveness of recovery efforts. For example, 
after a 1995 earthquake, the city of Kobe, Japan and the surrounding 
region held periodic external reviews over a span of 10 years on the 
progress made toward achieving recovery goals. As a result, the city of 
Kobe gained insight into unintended consequences of how it relocated 
elderly earthquake victims, which subsequently led to a change in 
policy.
    Chairman Bilirakis, Ranking Member Richardson, and Members of the 
subcommittee: I appreciate the opportunity to discuss with you today 
some key themes from GAO's previous work on long-term recovery after 
disasters. In contrast to the response phase, which takes place in the 
immediate aftermath of a disaster and focuses on essential lifesaving 
activities, recovery is a much longer process that can last years or 
sometimes decades where attention shifts to restoring both the 
individual and the community, including the redevelopment of damaged 
areas. The many recovery challenges experienced after Hurricane Katrina 
affected the Gulf Coast in 2005--including difficulties with 
coordination, communication, and the loss of attention and focus--
during the long recovery process, have led to considerable reflection 
on what lessons might be learned in how we, as a Nation, approach 
disaster recovery. Congress has recognized the importance of improving 
the way our Nation approaches disaster recovery by including in the 
Post-Katrina Emergency Management Reform Act of 2006 (PKEMRA) the 
requirement that the Federal Emergency Management Agency (FEMA) develop 
a National Disaster Recovery Strategy.\1\
---------------------------------------------------------------------------
    \1\ The Post-Katrina Act was enacted as Title VI of the Department 
of Homeland Security Appropriations Act, 2007, Pub. L. No. 109-295, 120 
Stat. 1355 (2006). Most provisions of the Post-Katrina Act became 
effective upon enactment, October 4, 2006, Under PKEMRA, DHS was 
required to submit a National Disaster Recovery Strategy no later than 
270 days after enactment.
---------------------------------------------------------------------------
    We also have seen the administration place a greater focus on the 
issue of recovery, as demonstrated by its development of--for the first 
time ever--a National Disaster Recovery Framework (NDRF) with the goal 
of helping Federal agencies and others to more effectively organize in 
order to promote recovery. This effort represents a welcomed emphasis 
on thinking seriously about the challenges and possibilities presented 
by the disaster recovery process, and the NDRF generally represents a 
step in the right direction. Yet challenges in this area remain. As the 
recently issued 2012 National Preparedness Report points out, States 
and territories ranked core capabilities related to disaster recovery 
among the lowest of all the areas assessed.
    With this in mind, and as agreed with the subcommittee, my 
testimony today will focus on three themes drawn from our previous work 
on disaster recovery that may prove useful in the subcommittee's on-
going oversight of disaster recovery issues. These themes are: (1) The 
need for clearly-defined recovery roles and responsibilities; (2) the 
importance of effective coordination and collaboration among recovery 
stakeholders; and (3) the value of periodic evaluation of, and 
reporting on, recovery progress.
    My statement is largely based on a body of work that we have 
developed on the topic of disaster recovery that dates from 2008 to 
2010. These include our March 2010 review of FEMA's Long-Term Community 
Recovery Branch (LTCR) in providing and coordinating assistance to 
support long-term recovery; a July 2009 report that identified recovery 
lessons based on past experiences at home and abroad; an April 2009 
examination of the use Community Development Block Grants on the Gulf 
Coast; an April 2009 overview of the Office of the Federal Coordinator 
for Gulf Coast Rebuilding (OFC); as well as our December 2008 
examination of FEMA's Public Assistance Grant program.\2\ These reports 
contain multiple recommendations to FEMA and others aimed at addressing 
recovery challenges involving coordination, communication, and 
information sharing, among others. The NDRF is directly responsive to 
several of the recommendations contained in these reports; however it 
will require the successful implementation of this framework in order 
to ultimately resolve these issues. More complete information on our 
scope and methodology, findings, and recommendations is available in 
each published report.
---------------------------------------------------------------------------
    \2\ See GAO, Disaster Recovery: FEMA's Long-term Assistance Was 
Helpful to State and Local Governments but Had Some Limitations, GAO-
10-404 (Washington, DC: Mar. 30, 2010); Disaster Recovery: Experiences 
From Past Disasters Offer Insights for Effective Collaboration After 
Catastrophic Events, GAO-09-811 (Washington, DC: July 31, 2009); Gulf 
Coast Disaster Recovery: Community Development Block Grant Program 
Guidance to States Needs to Be Improved, GAO-09-541 (Washington, DC: 
June 19, 2009); Office of the Federal Coordinator for Gulf Coast 
Rebuilding: Perspectives and Observations, GAO-09-411R (Washington, DC: 
Apr. 10, 2009); Disaster Recovery: FEMA's Public Assistance Grant 
Program Experienced Challenges With Gulf Coast Rebuilding, GAO-09-129 
(Washington, DC: Dec. 18, 2008); Disaster Recovery: Past Experiences 
Offer Insights for Recovering From Hurricanes Ike and Gustav and Other 
Recent Natural Disasters, GAO-08-1120 (Washington, DC: Sept. 26, 2008).
---------------------------------------------------------------------------
    We conducted these reviews in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
  clearly defining recovery roles and responsibilities is a critical 
                   first step for effective recovery
    When recovering from a disaster, having clearly-defined and well-
understood roles and responsibilities is a critical first step in 
coordinating and implementing the responsibilities of the various 
parties involved in the long-term recovery process. Roles, 
responsibilities, and lines of authority at all levels of government 
must be clearly defined, communicated, and understood in order to be 
effective. Our previous work provides examples of the challenges that 
result when this does not take place, and conversely, illustrations of 
benefits that can occur when it does, which I describe below.
    Our 2009 review of the operations of the Office of the Federal 
Coordinator (OFC) for Gulf Coast Rebuilding found confusion and 
disagreements among key recovery stakeholders as well as with the 
Federal Coordinator himself regarding the office's appropriate scope 
and function.\3\ According to OFC and officials from several State and 
local governments located on the Gulf Coast, one of the functions of 
the office was to work to resolve problems and obstacles in the 
recovery process by directly intervening in program-specific matters 
such as FEMA's Public Assistance Grant program. However, FEMA believed 
that such actions were outside the scope of a coordination office, and 
instead viewed OFC's proper role as being responsible for broad cross-
agency concerns, such as alleviating inconsistencies across Federal 
programs or looking for program gaps. This confusion, accompanied by 
the lack of clear decision-making authority on the part of OFC, may 
have ultimately slowed down the resolution of recovery problems in some 
cases by increasing the number of meetings and the amount of paperwork 
involved.
---------------------------------------------------------------------------
    \3\ GAO-09-411R.
---------------------------------------------------------------------------
    In 2010, we reported that misunderstandings about the role of LTCR 
and its recovery partners working under National Response Framework's 
Long-term Community Recovery Annex (ESF-14) had an adverse effect on 
the timing of Federal recovery assistance.\4\ For example, Federal, 
State, and local officials working in Texas in the wake of Hurricane 
Ike reported that LTCR and ESF-14's involvement ended before critical 
long-term recovery coordination and planning needs were addressed. 
Among the reasons cited for this were differing interpretations of 
FEMA's mission and authorities and varying interpretations of LTCR's 
mission by Federal Coordinating Officers. A senior FEMA official told 
us that, based on his experience, Federal Coordinating Officers 
generally believe that FEMA's long-term recovery mission is primarily 
to work with the States immediately after a disaster to develop a long-
term recovery plan. Under this view, assisting States and local 
communities with coordinating Federal assistance to implement their 
recovery plans is not the responsibility of staff working under ESF-14, 
but rather that of regional staff or other FEMA recovery officials who 
remain in the disaster area. However, FEMA regional staff sometimes did 
not take on this role. As a result, in some cases, such as in Texas 
after Hurricane Ike, State and local officials found that they were 
left without Federal coordination and planning assistance during a 
critical period in the recovery process.
---------------------------------------------------------------------------
    \4\ GAO-10-404.
---------------------------------------------------------------------------
    An effective way to avoid conflicts and misunderstandings regarding 
the roles and responsibilities of the many entities involved in the 
disaster recovery process is to clearly delineate them ahead of time 
through planning. On the State and local level, we found several 
examples of jurisdictions that used pre-disaster recovery plans to do 
this. For example, in 1987, several years before the Northridge 
Earthquake hit in 1994, the city of Los Angeles created a Recovery and 
Reconstruction Plan that clearly identified the roles and 
responsibilities of key officials involved in recovery. Specifically, 
the plan identified which city departments have responsibility for 
implementing predetermined activities before and after a disaster in 
several functional categories, including residential, commercial, 
industrial rehabilitation, and economic recovery. To be most helpful, 
such a plan must be more than simply paper instructions, rather it is a 
dynamic and inclusive process that is brought to life by periodic 
exercises. Long-term recovery planning exercises held by the city of 
Los Angeles brought police and fire officials together to engage in 
role-playing exercises in which they assumed the responsibilities of 
recovery officials. For example, a public safety officer played the 
role of a building inspector responsible for issuing building permits 
after an earthquake. A city official at the time of the earthquake told 
us that such exercises were an important part of developing 
relationships among stakeholders and ensuring city staff understood 
their post-disaster roles and responsibilities. According to a 
Federally-funded evaluation of this plan, the contacts established 
during the planning process facilitated recovery after the Northridge 
Earthquake. Communities in other areas including San Francisco, 
California, and Palm Beach, Florida, have taken action to develop 
recovery plans prior to a disaster that identify roles and 
responsibilities for recovery.
    FEMA has taken steps to more clearly define the roles and 
responsibilities of Federal, State, and non-Governmental partners in 
the NDRF that was finalized in September 2011. The NDRF explicitly 
acknowledges that clearly-defined roles and responsibilities form a 
foundation for unity of effort among all recovery partners to jointly 
identify opportunities, foster partnerships, and optimize resources. 
Toward this end, the framework has a section devoted to describing the 
roles and responsibilities for a range of participants in the recovery 
process including Federal, State, Tribal, and local governments, the 
private and nonprofit sectors, as well as individuals and households.
    The NDRF also created the position of Federal Disaster Recovery 
Coordinator (FDRC) and established a process for involving this 
official in coordinating Federal recovery assistance during various 
phases of recovery to help ensure that State and local needs are met, 
including extending this assistance beyond the closeout of Federal 
disaster response activities. Further, the NDRF provides clearer 
criteria regarding when and how recovery stakeholders become engaged in 
the process. It identifies the entities that will be involved in the 
decision-making process as well as the factors or criteria they will 
consider. In these ways, the NDRF provides the groundwork for 
addressing challenges identified in our previous work and thus 
represents a positive step forward, but still requires additional 
details regarding implementation.
     coordination and collaboration among stakeholders facilitates 
                          successful recovery
    Recovery from a major disaster is a long, complex process that 
involves an extensive group of participants both across the Federal 
Government and at the State and local level. At least 14 Federal 
departments and agencies are responsible for administering dozens of 
recovery-related programs, many of which rely heavily on active 
participation by State and local government for their implementation. 
Because of this, and the fact that under Federal law, States and 
localities have the lead in disaster recovery, the capacity of State 
and local governments to act effectively directly affects how well 
communities recover after a major disaster. Therefore, effective 
coordination and collaboration both within the Federal community as 
well as with State and local partners is critical. Our past work has 
explored this issue in considerable detail. Today, I would like to 
briefly focus on three of the ways the Federal Government has sought to 
improve coordination and collaboration in order to facilitate disaster 
recovery.
    First, the Federal Government has worked to foster coordination by 
bringing Federal and State stakeholders together collectively and by 
working one-on-one to identify and resolve recovery challenges. For 
example, in the wake of the 2008 Midwest floods, FEMA's LTCR branch 
held biweekly meetings in Iowa with Federal and State agencies, such as 
the Small Business Administration, the Departments of Housing and Urban 
Development, Labor, Agriculture, Commerce, and Transportation, and the 
Environmental Protection Agency; the State counterparts to these 
agencies; State finance offices; and others.\5\ According to officials 
we spoke with, these meetings provided a forum to identify and leverage 
Federal and State resources to support disaster recovery, as well as 
discuss potential coordination challenges such as gaps in funding or 
other long-term recovery concerns. Similarly, following the 2005 Gulf 
Coast hurricanes, OFC also worked to coordinate across agencies and 
with State and local partners, and address conflicts.\6\ Toward this 
end, OFC sponsored ``workout sessions'' focused on specific recovery 
topics and invited State and local agencies to address coordination 
challenges, and developed detailed matrices of the agreements reached, 
tasks to be performed, and stakeholders responsible for implementation.
---------------------------------------------------------------------------
    \5\ GAO-10-404.
    \6\ GAO-09-411R.
---------------------------------------------------------------------------
    Second, in addition to coordination at the Federal level, we have 
previously reported on the Federal Government's efforts to work with 
State and local governments to help them take advantage of all 
available disaster assistance and achieve long-term recovery goals.\7\ 
For example, in the wake of the 2008 Midwest floods, LTCR provided 
technical assistance to affected communities by conducting or 
facilitating recovery assessments to identify the long-term effects of 
the disaster, providing staff to advise the communities on steps to 
take as they developed recovery plans, creating planning tools that the 
communities used to guide their planning activities, and hosting 
workshops to discuss and share recovery-planning lessons, among other 
things. In addition LTCR helped communities to prioritize their 
potential long-term recovery projects and identify potential sources of 
funding.
---------------------------------------------------------------------------
    \7\ GAO-10-404.
---------------------------------------------------------------------------
    Third, collaboration between Federal, State, and local recovery 
partners in jointly administering disaster-assistance programs is also 
improved by effectively sharing information. For example, in 
Mississippi after Hurricane Katrina, Federal, State, and local 
officials adopted strategies that helped to facilitate the sharing of 
information on specific Public Assistance Grant projects. Following the 
disaster, FEMA's Mississippi Transitional Recovery Office and the 
Mississippi Emergency Management Agency were located in the same office 
complex in Biloxi, Mississippi, and officials from these agencies were 
also positioned together throughout the State. They reported that this 
co-location had multiple benefits for information sharing and exchange, 
including the timely sharing of critical documents and facilitation of 
daily meetings on project-development issues. In addition to 
collocating, FEMA and Mississippi State officials used Public 
Assistance Grant funding to secure an on-line accounting system that 
made operational documents associated with projects readily available 
to all parties. As a result, FEMA and the State had immediate access to 
key documents that helped them to make project-approval decisions, 
thereby improving collaboration.
    Improving coordination and collaboration is one of the key 
objectives of the NDRF, and the framework contains several strategies 
to do so. One of these involves the creation of the position of Federal 
Disaster Recovery Coordinator (FDRC). The FDRC is assigned the 
responsibility and authority to facilitate the coordination of 
information and activities among the Federal agencies whose programs, 
technical assistance, and expertise are relevant to recovery, within 
the framework of the Recovery Support Strategy. In large-scale 
disasters and catastrophic incidents, the NDRF also states that the 
FDRC will take over as the lead from the Federal Coordinating Officer 
(FCO), when the FCO demobilizes, to continue management of Federal 
recovery resources, for those incidents that require continued 
significant interagency disaster-recovery coordination. The NDRF also 
introduces the concept of recovery coordinators at the State/Tribal and 
local level that will work with the FDRC to facilitate coordination 
across levels of government. Along with establishing the position of 
the FDRC, the NDRF creates six Recovery Support Functions (RSF) to 
facilitate coordination and collaboration among the many different 
players involved in recovery. The NDRF also outlines ways to improve 
collaboration between Federal, State, and local communities in 
developing recovery plans. The framework states that Federal officials 
should provide timely, accurate, and accessible information to the 
public and manage such expectations in coordination with local, State, 
Tribal, and other stakeholders. However, the NDRF currently does not 
provide the details for how to do this.
     periodic evaluation and reporting of recovery progress is key
    Periodic reporting on organizational activities can help decision 
makers, clients, and stakeholders obtain feedback for improving both 
policy and operational effectiveness of recovery efforts. Although 
``after-action reports'' often are a standard feature of response 
operations, they are less common in the recovery context. The city of 
Kobe, Japan, and Hyogo prefecture (the larger governmental unit, 
similar to a county, that covers the city's surrounding region) both 
provide examples of how evaluation and reporting can be effectively 
incorporated into community and regional recovery. They established a 
process through which government officials, community members, and 
recovery experts worked together to assess the recovery progress and 
recommend improvements.
    Hyogo prefecture and the city of Kobe created a system of periodic 
assessments of recovery in the wake of their 1995 earthquake. Both 
governments designed a two-phase approach to evaluating the progress 
they have made toward recovery, the first taking place about 5 years 
after the earthquake and the second about 10 years afterward. This 
design allowed for both a short- and longer-term assessment of the 
recovery. Although the Hyogo and Kobe governments funded these 
evaluations, neither prefecture nor city employees were directly 
involved in conducting these assessments; rather they used external 
staff to perform the reviews. Hyogo prefecture invited domestic and 
international disaster-recovery experts to serve on its evaluation 
panels, while the city of Kobe staffed its reviews with members of 
local community groups.
    These evaluations focused on the goals established in the recovery 
plans approved by the national government 6 months after the 
earthquake. They enabled policymakers to measure the progress made by 
various stakeholders in achieving recovery goals, identify needed 
changes to existing policies, and learn lessons for future disasters. 
The panels examined several broad recovery topics--including health, 
industry, employment, and urban development--which resulted in many 
recommendations to improve recovery from the Kobe earthquake.
    For example, as a result of its 10-year evaluation, Hyogo 
prefecture gained insight into the unintended consequences of its 
policies regarding the relocation of victims, an insight that 
subsequently led to policy revisions. After the earthquake, the 
prefecture gave priority to the relocation of elderly victims and 
grouped them together in special-care residences located outside the 
city. While this policy ensured that this vulnerable population 
received housing quickly, it also had the unintended effect of 
isolating the relocated seniors, who were removed from their 
communities. In fact, the verification committee attributed the 
untimely deaths of some seniors to this housing arrangement. After 
learning of this finding, the prefecture built new types of residential 
housing that offer comprehensive lifestyle support for seniors. In 
addition, for future disasters the prefecture plans to develop a system 
to track displaced populations as they move from temporary to permanent 
housing to help maintain better contact with victims.
    While the NDRF does briefly address the issue of measures and 
metrics, the document emphasizes neither this concept nor the potential 
value of regular evaluations as the recovery process moves forward.
                        concluding observations
    Disaster recovery can be a long, complex, and expensive process 
involving a large number of Federal, State, and local parties. This 
makes it especially important to have clearly-defined roles that are 
well understood by all participants. Because these parties often depend 
on each other to accomplish recovery goals, effective coordination and 
collaboration is essential. Experience shows us that successful 
collaborative relationships are not built overnight. Such coordination 
requires building effective relationships among participants before, 
during, and after a disaster occurs. Since such collaboration often 
must continue for years, it can be enhanced by periodically looking 
back to evaluate what worked, what can be improved, and what progress 
is still needed. Clearly defining roles and responsibilities, effective 
coordination, and evaluation are critical ingredients in going beyond a 
recovery framework to a useful implementation plan. While the creation 
of the NDRF is a significant step, the implementation of this broad 
framework will be a key to determining its ultimate success.
    Chairman Bilirakis, Ranking Member Richardson, and Members of the 
subcommittee, this concludes my statement. I would be happy to respond 
to any questions you may have at this time.

    Mr. Bilirakis. Thank you very much. I appreciate it.
    I will recognize myself for questions.
    The first question is to Administrator Manning. The 
National Preparedness Report, the NPR, ranked the core 
capabilities based on a fixed percentage that was formulated by 
the State Preparedness Report survey data. Interestingly, in 
the self-assessment surveys completed by the States, 
respondents were only given the option of selecting one of five 
provided statements, where each successive statement indicates 
a higher capability. Why is this the case? Can you please 
explain how FEMA translated data from the State Preparedness 
Reports into the overall fixed percentages?
    Second, were other factors like the independent evaluations 
and studies by other Federal agencies used to determine the 
final rankings? How, if at all, did FEMA verify the data 
provided by States to determine that it had provided a complete 
and accurate picture? If FEMA did not verify the data, what 
plans do you have in the future for future reports to include 
such validations?
    You are recognized.
    Mr. Manning. Thank you, Mr. Chairman.
    The National Preparedness Report included a wide variety of 
data sources and methodologies in our analysis to its 
conclusions. The State Preparedness Report data that you 
reference actually was a very small percentage of the overall 
data analysis included in the report. Only 13 percent of the 
capability analysis is based on the State Preparedness Report 
data. The ranking of the survey results of that data set 
represents the relative impression that the States have in 
their activity in that regard.
    We did, in fact, validate anomalies in the analysis as we 
were analyzing the State Preparedness Report data. For example, 
we looked for statistical anomalies in the responses and in the 
data sets. One, for example, we identified a State that ranked 
a volcano hazard as very high in a State that had no volcanoes, 
as an example. But it turned out, on our further review and 
deeper analysis of that particular example, that their concern 
there was the impact from a neighboring State. Another example 
would be areas where they ranked catastrophic disasters across 
the board above other concerns. So, in the course of the 
analysis of the SPR data, we identified a number of places and, 
on further review, determined that in almost all of those cases 
they were statistically valid data sets.
    Across the rest of the National Preparedness Report, we 
used over 800 other documents--State, Federal reports and 
analysis; analyzed over $24 billion worth of Department of 
Homeland Security and Health and Human Services grant 
expenditures; quantitative data on what was procured, in what 
time, for what particular capabilities; and evaluated household 
survey data that we have been conducting for a number of years 
that represents over 98 percent of U.S. households.
    As we progress into subsequent years of the National 
Preparedness Report, we continue to evaluate the data sources, 
identify new sources of capability to be analyzed, gaps in the 
existing data sets, refine our survey tools. For example, in 
the State Preparedness Report, the State Preparedness Report 
was based on--the analysis of State Preparedness Report was 
based on a time period that predated PPD-8 and the 
identification of the 31 core capabilities. As we progress with 
the State Preparedness Report into the future, they are 
realigned into the core capabilities to give us a stronger 
ability to link the activities of our partners to those core 
capabilities against the goal and be able to measure our 
preparedness to meet that goal.
    Mr. Bilirakis. Thank you.
    This question is regarding, Mr. Manning, CMAS. 
Administrator Manning, the WARN Act required Nation-wide 
deployment of CMAS, which is the Commercial Mobile Alert 
System, by April 2012. Yet, according to FEMA, only 24 alert 
originators have been approved at this point. Despite early 
deployment in the D.C. area, the D.C. Homeland Security and 
Emergency Management Agency has yet to be approved as an alert 
originator.
    What is the status of the CMAS deployment? What is the 
process for authorization of alert originators? When will the 
many alerting authorities awaiting authorization be approved by 
FEMA?
    Mr. Manning. Thank you, Mr. Chairman.
    CMAS is an important new tool available to the emergency 
management community to communicate alert and warning to the 
public. We are very happy to say that we do have seven of the 
National carriers, including all of the major, big carriers 
across the country, cellular phone carriers, are participating 
and have that capability Nation-wide today. We have 18 States 
that are currently enrolled and active as message originators, 
an additional 46 cities and counties across the country, and a 
number that are in the process.
    Mr. Chairman, you asked what is involved in becoming an 
originator and specifically to the District of Columbia. There 
are steps--basically, the steps that are required to become a 
message originator boil down to, at the local government level, 
to having taken the appropriate training to understand what is 
required, what are the threshold criteria to originate a 
message and how to go about doing that; the acquisition of the 
software to be able to promulgate that message, which is a very 
simple thing; and an MOU with the Department of Homeland 
Security in order for the technical systems between a State or 
local government to interface with ours.
    We have been working with the District of Columbia on 
coming into the system. They have met the training, they have 
met the other criteria. The MOU is awaiting signature with the 
District office of emergency management, D.C. Emergency 
Management Agency. We are doing everything in our power to 
facilitate that on their end.
    Mr. Bilirakis. But what seems to be the problem, you know, 
specifically the District of Columbia, but also--you know, 
there are only 24 alert originators. I mean, what is holding it 
up? This was supposed to go on-line, you know, according to the 
WARN Act, in April 2012. What seems to be the problem?
    Mr. Manning. Well, Mr. Chairman, it appears that the delay 
on the--CMAS is deployed from a technical perspective from FEMA 
and with our partners in the cellular phone industry, with the 
seven major carriers. The delay in getting the message 
originators--it is a voluntary program, so it requires State 
and local governments to choose to enroll and become message 
originators.
    We can today promulgate a message, a Presidential message. 
The National Oceanic and Atmospheric Administration, the 
National Weather Service has the ability to promulgate warning 
today--two phones that are enabled over the carriers that are 
carrying it. The local government----
    Mr. Bilirakis. I don't mean to interrupt, but, I mean, how 
many have chosen to enroll? It is a voluntary program. 
Approximately how many are waiting? You know, if you can give 
me some specifics on that.
    Mr. Manning. Mr. Chairman, we have 18 States that are 
currently active that are enrolled that are approved as message 
originators. An additional 46 cities and counties are approved 
as message originators. I believe we have another 20 that are 
in the process of negotiating the MOUs.
    We are also actively pursuing, at the very least, all 56 
States and territories to become message originators. A State 
has the ability to promulgate a message to a geographic area 
within a city or county, whether the city or county has chosen 
to sign up as a message originator. By focusing our efforts on 
the States, actively focusing our efforts on getting all 56 
States and territories to be message originators, we can cover 
the American population while we work with the cities and 
counties.
    Mr. Bilirakis. Thank you very much.
    I want to ask Mr. Czerwinski a question, and then I am 
going to yield to my colleagues here.
    Looking over the report, sir, I can see that one of the 
mission areas the Nation needs to continue to develop and 
sustain is the recovery mission. In the NPR, most of the 
recovery-focused core capabilities received a ranking of 62 
percent or lower, and that is unacceptable.
    What recommendations do you have that will help the Nation 
continue to develop and sustain recovery capabilities?
    Mr. Czerwinski. Mr. Chairman, thank you for asking that 
question because it matches up perfectly with the point that I 
was making, and that is, in terms of recovery, we are behind 
where we are in response.
    The point that I made in my opening statement is the one 
that I would reiterate, and that is, we need to come up with 
the plans that implement the framework, we need to practice 
them. I cannot express how more important practice is, because 
that is how things really get learned and done. It is then you 
have to take a step back and evaluate.
    On the response side, we have the concept of after-action 
studies. That is something that would be very useful on the 
recovery side, to do those kind of evaluations and then make 
those changes.
    Mr. Bilirakis. Thank you very much. I appreciate it.
    Now I will recognize Mr. Farenthold for 5 minutes, the 
gentleman from Texas. You are recognized, sir.
    Mr. Farenthold. Thank you very much.
    Mr. Manning, it is my understanding, at least in broad, 
general terms, you have the preparedness, the response, and the 
recovery are kind of the three phases of what we would do.
    We have suffered in Texas quite a few disasters, obviously 
a hurricane-prone area. Knock on wood, we have dodged anything 
serious in recent years. But we recently had the fires in 
Bastrop County. There were some issues during the second--
obviously, you know, I am not sure how involved FEMA with 
preparing for those. But the early response, we hit a couple of 
bumps. Now, from what I am hearing from the people in the area, 
FEMA is starting to pull out before the recovery is completely 
finished.
    How far is FEMA set to go on recovery? I mean, where do you 
say, ``All right, we are done, it is time to leave''?
    Mr. Manning. Thank you.
    Under the National Disaster Recovery Framework that we 
promulgated last year, it changes the way we approach recovery. 
We look at recovery as the economic viability of a community; 
the community is back functioning and back healthy. In the case 
of the Bastrop fires, I will look into that when I return back 
to the office, and the progress that is being made there.
    But, generally, in recovery, we have--we break our recovery 
activities into two areas. We have public assistance, where we 
assist the local governments in rebuilding the infrastructure, 
and then our individual assistance, where we work with 
individuals and families.
    The NDRF takes a new approach at working with families. We 
prefer to do this as a whole community, with case management 
and ensuring that we work and follow through as individuals 
that are trying to recover from the effects of disasters. We 
work in support of the States and the Governors. We don't close 
our disasters or leave a community until we all, with the 
Governor, feel that we have reached that point.
    Mr. Farenthold. If you have somebody that could visit with 
my office at some point in the future and follow up with me on 
where we are with that, because some of the community leaders, 
I am hearing, are not entirely--let's go to preparedness for a 
second.
    One of the things that is facing us in Texas is, you all 
are redoing flood maps for the Federal flood insurance. It has 
substantial impact both on the Government and in the private 
sector that is going down there. Is anything being--I assume 
the technology has improved for the mapping, and that is one of 
the reasons we are doing it. If there are others, I would like 
to know about them.
    Does FEMA have any program or help available to local 
governments that are adversely affected by that or some of the 
remediation efforts that they have to do to come into 
compliance with some of the new regulations? Or do these maps 
just result in some sort of unfunded mandate for local 
governments?
    Mr. Manning. No, sir. We certainly do have the ability and 
do, in many circumstances, work to alleviate or find any 
problems that may have arisen.
    You are absolutely right, the map modernization project, 
Risk MAP, is a reflection of new technology, new ability to 
have much greater detail in our maps and a better understanding 
of our flood insurance rate maps of where areas are at risk. I 
would be very happy to point our Flood Insurance and Mitigation 
division personnel to work with your office to find who in your 
community needs assistance and put them in touch with our 
people and, of course, in FEMA Region 6 in Texas.
    Mr. Farenthold. All right. Then I will yield back the 
remainder of my time.
    Mr. Bilirakis. Thank you, sir.
    I now recognize the gentleman from Pennsylvania, Mr. 
Marino. You are recognized for 5 minutes.
    I am sorry, I thought it was Mr. Marino. You look a little 
like him. Okay, Mr. Turner. I am sorry. You are recognized.
    Mr. Turner. Thank you. I just got 20 years back.
    With the changes to the threat levels against the United 
States, the need for first responders to receive vital 
intelligence information has become a critical component in the 
Nation's ability to prevent and protect against, mitigate the 
effects of, and respond to and recover from terrorist attacks 
and disasters.
    I believe that, within the National Preparedness System, 
the intelligence- and information-sharing core capability needs 
to be integrated into all the mission areas and frameworks. I 
am particularly concerned with the high-rises in New York City, 
the HAZMAT groups and special rescue units within the FDNY.
    What is FEMA doing to ensure that these first responders, 
particularly in these high-risk areas, are receiving the timely 
and necessary information across all the mission areas?
    Mr. Manning. Thank you. That is an extremely important 
topic.
    We have been very happy over the years to be able to 
support our partners through the development of the network of 
fusion centers that have been built up across the country in 
our State and urban areas. Some of our colleagues here today 
and on the next panel will talk about that, as well.
    We have a large percentage of the investment that we have 
made over the past 10 years in our Homeland Security Grant 
Programs have gone to support intelligence and information 
sharing, specifically in the fusion centers but also across 
information sharing, the technology and the planning, to 
integrate across the traditionally bifurcated response 
emergency management community and the prevention and 
protection community of law enforcement and the intelligence 
community.
    You mentioned the core capabilities. In the National 
Preparedness Goal, under Presidential Directive 8, for the 
first time we have a synchronized linking of our capabilities, 
of all 31 core capabilities. We do categorize them as 
prevention, protection, response, recovery, and mitigation as a 
way to develop frameworks around the sharing across those, but 
having them linked into one National preparedness system. So 
the activities in information sharing, information and 
intelligence sharing, and all of the prevention and protection 
activities are seamlessly linked through the National 
Preparedness System with the activities in response and 
recovery of our emergency management community, the traditional 
fire services, the public works agencies that have not always 
been part of that law enforcement community on information 
sharing.
    I think we have made great strides in those regards. There 
are great examples in the New York metropolitan area in recent 
years. I think we see through the example this week of the 
National Level Exercise 12, NLE 12, part of the National 
Preparedness System is the National Exercise Program, along 
with our National Training and Education System, along with 
building our core capabilities through the National Incident 
Management System to be able to protect the public. The 
exercise system, the exercise program is how we evaluate our 
plans, how we evaluate how well we have planned and how well we 
work together.
    This year we are doing a cybersecurity exercise, when we 
were working across State and Federal governments to share 
information and intelligence on the potential nation-state and 
terrorist actors that are attacking the United States and 
synchronizing that through the response community that is 
preparing for and responding to the physical manifestation of 
these cyber attacks in this exercise. I think that is a good 
example of where we are pulling those threats together.
    Mr. Turner. All right.
    In the days and weeks following 9/11, NYPD was working 
heroically downtown in a very hazardous environment. There were 
things that were known by some branches of Government that 
seemed not to be known by others. How would that be addressed 
today?
    Mr. Manning. Specifically in referring to the coordination 
of information in a response on the streets, we have a vastly 
different structure of organizing how we do both the policy and 
information coordination at the Federal Government level and 
across the country since 2001.
    Information sharing across Federal agencies is dramatically 
better than it was in 2001 through the advent of our National 
security staff, a change from looking holistically at National 
security and homeland security issues; the National 
Counterterrorism Center and the work of I&A, Intelligence and 
Analysis, at Department of Homeland Security, being able to 
pull information from the intelligence community and provide it 
right to State and local law enforcement; things like the ITAG, 
the threat advisory group, that is made up of State and local 
law enforcement officers, in some case fire service officers, 
working at the National Counterterrorism Center. There is an 
ability to share information that didn't exist in 2001.
    Additionally, on-the-street coordination. One of the things 
we identified in the responses to the 9/11 attacks as needing 
critical attention was operational coordination--how we worked 
together, how multiple governments worked together, cities and 
States from around the country, and how law enforcement and the 
fire service and public works and the public health community, 
how do we coordinate?
    So President Bush issued Homeland Security Presidential 
Directive 5, which established the National Incident Management 
System, then passed by Congress in the Post-Katrina Emergency 
Management Reform Act. We now have--all the States and local 
governments in the country have reported compliant with the 
National Incident Management System. We now have one National 
system for coordinating multi-jurisdiction, multi-governmental 
levels of response on the street. We didn't have that in 2001. 
We have it today, and we have the entire country that has had 
that training.
    Mr. Turner. Thank you.
    Mr. Bilirakis. Thank you, sir. I apologize for calling you 
Mr. Marino, but he is a good guy. I have some vision problems.
    Mr. Turner. I am flattered.
    Mr. Bilirakis. So I apologize.
    Okay. Before I dismiss the first panel, I want to ask one 
question of Mr. Manning.
    To what do you attribute the lag of cyber capabilities on 
the State level, as reported in the State Preparedness Report?
    Mr. Manning. Thank you, Mr. Chairman.
    I think an important first thing to keep in mind is that 
the National Preparedness Report--this National Preparedness 
Report covers an analysis of the time period between 2001 and 
2010. We have learned a great deal just in the past 18 months 
and made great strides.
    So cybersecurity we see as a low level of response on the 
part of the States. Over a time period where it was emerging as 
a homeland security threat, it was an area where many people 
were identifying emerging threats, both nation-state and 
nongovernmental actors, but unsure of how to focus an effort on 
building capability. This is something we have made great 
strides on just in the last 18 months. I mentioned the National 
Level Exercise this week. We also have things like the National 
Cyber Incident Response Plan, the NCIC, the center for 
coordinating that response. I think we have seen an uptick just 
in the last year of activity on the part of the State and local 
governments in preparing for cyber attacks.
    Another important thing is the purpose of the National 
Preparedness Report is to identify the areas we are strong in 
but also to identify areas that we need more focused attention. 
So I think identifying areas such as cybersecurity as an 
activity, as a homeland security activity of State and local 
governments that needs attention is a success of the report. It 
draws attention to the fact we need to do more, and we are 
already seeing more in that. It becomes a priority for us going 
forward in how we identify the threats and hazards for which we 
have to prepare.
    Mr. Bilirakis. I would like to continue to track that, so I 
would like to get with you on that and get some more details on 
the progress we are making on the State level.
    Thank you very much. I thank the panel for their testimony. 
Of course, I thank the Members for their questions.
    I want to dismiss you and move on to the second panel. 
Thank you very much again.
    I would like to welcome the second panel.
    Our first witness is Mr. John Madden. Mr. Madden is the 
director of the Alaska Division of Homeland Security and 
Emergency Services--welcome, sir--a position to which he was 
appointed in January 2007. Mr. Madden has served in the U.S. 
Army and as a civilian in many Federal departments and 
agencies, including the Navy, National Weather Service, Federal 
Aviation Administration, and the Transportation Security 
Administration. Mr. Madden currently serves as the vice 
president of the National Emergency Management Association.
    Welcome, sir.
    Following Mr. Madden, we will receive testimony from Mr. 
Mike Sena. Mr. Sena is the deputy director of the Northern 
California Regional Intelligence Center and serves as president 
of the National Fusion Center Association. He has served in law 
enforcement for nearly 20 years, including with the California 
Bureau of Investigation and Intelligence, the California Bureau 
of Narcotics Enforcement, and the California Department of 
Alcoholic Beverage Control. Mr. Sena received his bachelor of 
arts in criminal justice from California State University--San 
Bernardino.
    Finally, we will receive testimony from Dr. Georges 
Benjamin. I am sure that is probably not the way to pronounce 
``Georges,'' but anyway. Dr. Benjamin is the executive director 
of the American Public Health Association, a position he has 
held since December 2002. Prior to this position, he served as 
a secretary of the Maryland Department of Health and Mental 
Hygiene. Dr. Benjamin is a graduate of the Illinois Institute 
of Technology and the University of Illinois College of 
Medicine.
    Welcome, all the witnesses. We look forward to your 
testimony. Your entire written statements will appear in the 
record, and I ask that you summarize your testimony for 5 
minutes.
    Again, we are expecting votes in about 20 minutes or so, so 
I think we can probably wrap this up. But, you know, I want to 
make sure that we hear all your testimony and we ask as many 
questions as possible. But I appreciate you being here today.
    We will go ahead and begin with Mr. Madden. You are 
recognized for 5 minutes, sir.

   STATEMENT OF JOHN W. MADDEN, DIRECTOR, ALASKA DIVISION OF 
 HOMELAND SECURITY AND EMERGENCY MANAGEMENT, ON BEHALF OF THE 
           NATIONAL EMERGENCY MANAGEMENT ASSOCIATION

    Mr. Madden. Chairman Bilirakis and Members of the 
committee, thank you for the opportunity to testify today on 
behalf of the National Emergency Management Association. NEMA 
represents the State emergency management directors in all 50 
States, the District of Columbia, and the U.S. territories.
    Emergency management and homeland security officials have 
long been challenged on how best to measure the effectiveness 
of our preparedness efforts. Are we doing the right thing for 
the right outcome? Do our efforts before the disaster improve 
our actions during and after the disaster?
    Much as the Department of Defense once planned and trained 
for the last war, until the last decade we prepared for the 
last disaster. But we learned there is great uncertainty on 
how, when, and where disasters strike and with what motivations 
and sophistication criminals and terrorists plan, practice, and 
conduct their attacks.
    We find ourselves today in the midst of a much-needed 
transformation--a transformation of preparedness from a 
reaction to a discipline, but not a discipline that is rigid 
and bureaucratic, rather a discipline that enables us to turn 
swiftly to a new adversary, to recognize an evolving hazard and 
recognize an increasing risk, and to confront a new emerging 
threat.
    We consider the first National Preparedness Report a very 
good start. It is well-written, well-documented, but it is 
still transitional. There is no solid linkage yet between the 
analysis of threats and hazards at the State and local level 
and the broad assessment of preparedness across the Nation. 
This must be our foremost emphasis in future reports.
    Before we will achieve a truly useful National Preparedness 
Report, we need a completely integrated system of analysis and 
problem solving, a system for sharing innovations and lessons 
learned between all of our stakeholders, a system that fosters 
partnerships and does not create undue competition with winners 
and losers. We need to identify and address vulnerabilities 
that exist beyond the ability of a city or of a State to 
resolve. We must document how our systems work and what can go 
wrong; identify potential consequences and what capabilities we 
need to prevent, protect, mitigate, respond, and recover; and, 
finally, how best to prioritize our actions and our resources 
to close the most critical gaps.
    Our focus must be on our ability to prepare for and respond 
to events of extreme complexity based on size, duration, 
consequences, or concurrent or remote events. FEMA's approach 
of the maximum of maximums is an interesting thought 
experiment, but why limit ourselves to an assumption of 
sheltering 100,000 for 30 days? Why not 200,000 for 60 days, in 
winter, during a pandemic? The National Preparedness Report 
should lend insight in setting priorities and investing in 
capabilities that draw down the risks to the Nation and its 
vital interests.
    Earlier this year, NEMA released the proposal for a 
comprehensive preparedness grant structure in which we stated 
our fundamental principles and values of the States. One is 
very relevant to this discussion on the National Preparedness 
Report: Build and sustain a skilled cadre across the Nation 
that is well-organized, rigorously trained, vigorously 
exercised, properly equipped, prepared for all hazards, focused 
on core capabilities, and resourced for both the most serious 
and the most likely threats and hazards.
    Mr. Chairman, these are the hallmarks of a prepared Nation, 
and these are what we should be measuring.
    Thank you for this opportunity to testify.
    [The statement of Mr. Madden follows:]
                  Prepared Statement of John W. Madden
                              June 6, 2012
                              introduction
    Chairman Bilirakis, Representative Richardson, and distinguished 
Members of the subcommittee; thank you for the opportunity to present 
testimony today on behalf of the National Emergency Management 
Association (NEMA). NEMA represents the State emergency management 
directors of all 50 States, the District of Columbia, and the U.S. 
Territories.
    One of the most significant challenges facing State and local 
emergency management and homeland security officials is assessing the 
effectiveness of preparedness. Are we doing the right things for the 
right outcome? Do our efforts before the disaster improve our actions 
during and after the disaster? Such measurement remains elusive due to 
the ever-changing nature of preparedness itself.
    Congress and various administrations have instituted several 
programs to address preparedness. For example, the Emergency Management 
Performance Grant (EMPG) has built a strong State and local baseline 
capability of emergency management in this Nation. The State Homeland 
Security Grant Program has enabled significant investment in equipment 
and capabilities.
    We truly are a more prepared Nation. From neighborhood communities 
through all levels of government, we have acquired resources, achieved 
collaboration, and built systems to mitigate, prevent, prepare for, and 
respond to natural hazards and terrorist threats.
    Today, I will examine the evolution of preparedness in this Nation, 
the engagement by State officials in this process, and the future 
direction of preparedness.
              the evolution of preparedness in this nation
    The Federal Emergency Management Agency (FEMA) released the 
National Preparedness Report earlier this year. The document was 
intended to be one of many reports to assess capabilities and help the 
Nation set priorities in coming years. To fully understand the origins 
of the report, we must first review several seminal events that drove 
changes on how this country approaches preparedness from a Federal, 
State, and local perspective.
    Until the last decade, most preparedness efforts by the Nation were 
backward-facing. In other words, we prepared for the events and 
disasters of the past. We focused on improving our response to the last 
disaster. Unfortunately, neither nature nor humans are so cooperative 
as to follow this strategy. The repeated lesson learned is great 
uncertainty in how, when, and where disasters strike and with what 
sophistication criminals and terrorists plan, practice, and conduct 
their attacks.
    After the tragic events of September 11, 2001, it became a National 
priority to create and sustain the ability of State and local 
governments to prevent and respond to a broad range of severe homeland 
security events. Much like the events of 60 years earlier at Pearl 
Harbor, September 11 identified gaps in our approach to awareness of 
what is going on and how we prepared for future disasters or attacks. 
September 11 also challenged all our assumptions about preparedness. 
The focus of many new Federal programs was to avoid another surprise by 
building the necessary capabilities to prevent incidents when possible 
and respond appropriately when the next event occurs.
    The terrorist attacks of 2001 and anthrax attacks later the same 
year brought ``Homeland Security'' from theory into practice. It also 
forced the reexamination of preparedness. The Nation began a 
transformation in our approach to preparedness--from reaction to 
discipline. Our goal was not a discipline which is rigid and 
bureaucratic; but rather a discipline enabling us to turn swiftly to a 
new adversary, recognize an evolving hazard, and confront an emerging 
threat. Two years later, then President Bush issued Homeland Security 
Presidential Directive (HSPD) 8; National Preparedness. This document 
strengthened preparedness by articulating a clear and definable goal, 
and established mechanisms to improve preparedness and strengthen 
capabilities. Unfortunately, HSPD-8 overlooked one key aspect of 
preparedness--the natural disaster.
    In 2005, Hurricane Katrina ravaged the Gulf Coast and demonstrated 
a clear lack of preparedness for a catastrophic event at practically 
every level of government. In the aftermath of the storm, Congress 
passed the Post-Katrina Emergency Management Reform Act (PKEMRA). Among 
its many elements, this legislation required States to submit an annual 
State Preparedness Report to FEMA. The most recent report submission 
occurred at the end of last year.
    Finally, last year the President signed Presidential Policy 
Directive (PPD) 8: National Preparedness, which replaced HSPD-8. PPD-8 
called for several new elements, including a National Preparedness Goal 
and a National Preparedness Report. This report, published on March 30, 
2012, was partially built by integrating data from the State 
Preparedness Reports. PPD-8 has not yet been fully implemented or 
institutionalized. The supporting frameworks are still being refined 
and must be integrated with each other and within the entire 
preparedness system.
         connection between the national and the state reports
    We consider the initial National Preparedness Report as 
transitional. There is no solid linkage yet between the analysis of 
threats and hazards at the State and local level and the broad 
assessment of preparedness across the entire Nation. In assessing 
preparedness, we must not start at the end but at the beginning. The 
key element for successful integration is the threat, hazard 
identification, and risk assessment or ``THIRA.'' This tool has 
potential for being the analytical foundation for understanding and 
setting priorities. The THIRA should be the means by which we document 
how the system operates, what can go wrong, a means to identify 
potential consequences, and how best to address gaps. By their very 
nature, all threats and hazards are variable. There is no single 
descriptor of hurricane or of an improvised explosive device. The THIRA 
enables a problem-solving approach to preparedness. For example, a 
county with a variable flood hazard may partner with a neighboring 
county to meet its sheltering needs for a local flood. But if the 
partner county faces the same hazard, shelters may remain unavailable 
for use requiring a broader, regional, or State solution.
    Preparedness is about priorities. There is an old saying that a 
ship in harbor is safe but does not represent why we build ships. This 
Nation must seek and achieve the balance of actions toward preparedness 
to enhance our economy and not create burdens. The removal of such 
encumbrances will enable the continued movement of goods and people 
without undue restrictions and ensure the continued provision of 
essential services under all conditions.
    Our examination of preparedness must not be abstract, but rather 
form the basis for action. FEMA should improve these reports to enable 
a greater return on investment to the States and the local governments. 
The value should be placed on local decision-making as much as on 
National assessment. First, States must fully integrate Core 
Capabilities into their planning, analysis, and organizations. Even 
though FEMA did not require States to address all the Core Capabilities 
in the latest report the States seek to integrate them thoughtfully and 
systematically.
    According to a July 2011 report completed by NEMA, ``In fiscal year 
2010, States addressed anywhere from one to 25 of these National 
priorities for each investment. The capabilities most often addressed 
included Planning, Communications, Community Preparedness and 
Participation, Critical Infrastructure Protection, and On-Site Incident 
Management. Whether a small or large expenditure, or a project 
impacting multiple or just a few capabilities, each of the National 
Capabilities found representation in at least one justification 
throughout the country.''
    FEMA should increase its collaboration on the implementation of the 
National Preparedness System. Within the States stand countless 
examples of innovation in methods, approaches, and products. 
Considerable sharing of these innovations can be found across the 
States. The emphasis should be on achieving the ability to prepare for 
and respond to events of extreme complexity based either on size, 
duration, consequences, or concurrent or remote events. FEMA's approach 
of the ``maximum of maximums'' is an interesting thought experiment; 
however, every claimed maximum can be surpassed and is by definition a 
compromise.
    The National Preparedness Report should be based on realistic 
analysis valuing qualitative as well as quantitative values. The 
knowledge base of threats and hazards, levels of preparedness, and how 
to address gaps is best identified by including the broadest possible 
stakeholder base. But the Nation is not well served by any reductionist 
analysis based on a ``GREEN, YELLOW, RED'' coding or by assigning a 
value of ``one through five'' when attempting to manage highly complex 
and inter-related issues.
    Overall, States agree with some of the findings of the National 
Preparedness Report. For example, Federal preparedness assistance 
grants have certainly helped build and enhance State, local, Tribal, 
and territorial capabilities throughout multi-year investment. The 
entire systems could be improved, however, if the existing disjointed 
preparedness system could be revamped.
                      moving preparedness forward
    Besides these specific suggestions, overall preparedness in this 
Nation can be greatly enhanced by systemic changes in how the Federal 
Government supports preparedness functions at the State and local 
levels. Earlier this year, NEMA released the Proposal for a 
Comprehensive Preparedness Grants Structure. This proposal looks at 
preparedness grant funding holistically and brings State, local, and 
National priorities into alignment with one another.
    The current grants structure is complex and often contradictory. 
This creates unintended inefficiencies in investments and duplication 
of efforts. The current and continuing fiscal condition of our Nation 
requires us to invest every dollar more wisely than ever before. We 
want to gain efficiencies in our grants in order to increase the 
effectiveness of our mission. Within a grants system based on 
``flexibility with accountability,'' the States, local governments, and 
the disciplines charged with our safety and security are capable of 
insight leading to ideas, innovation guiding investment, and a system 
of sharing which ensures we improve both our efficiency and 
effectiveness.
    We must integrate our efforts to improve agility in confronting 
threats to the homeland, whether they are natural, technological, or 
man-made. This Nation must effectively build strengths and capabilities 
against a range of threats, reduce the consequences of many hazards, 
and thus reduce the risks to our communities.
    From the purchase of basic equipment to such citizen involvement 
campaigns as ``See Something, Say Something,'' and from procuring major 
communications systems to improving the way State and local governments 
share information, these programs have continued a National effort 
toward better safeguarding and securing our communities. State and 
local governments use these essential programs to support our 
neighborhoods across a range of Government programs, faith-based 
initiatives, regional collaborations, and personal preparedness 
efforts.
    The Department of Homeland Security does not stand alone in this 
effort. Many other Federal agencies also oversee hundreds of 
preparedness programs, from the Department of Health and Human Services 
to the Department of Education. All programs provide a level of 
confidence in the ``system'' so when a major event does occur the 
citizens of this country remain confident the whole of Government and 
community has the skills, resources, and knowledge to effectively save 
lives and protect property.
    In these tough economic times, the Federal Government does not bear 
the burden of securing our homeland alone. Billions of State and local 
funds are also invested in homeland security activities. Even citizens 
all across America--some barely able to afford the expense--supply 
themselves with preparedness kits to contribute to this truly National 
effort.
                mitigation as a function of preparedness
    Emergency management organizations at the Federal and State levels 
often are structured more for execution than for planning. We separate 
the major functions of the profession such as preparedness, protection, 
mitigation, response, and recovery into easily managed directorates; 
however, an increasing reliance on the overlap occurs between them 
naturally. While preparedness and mitigation activities can differ in 
their mission and execution, the natural similarities provide the 
emergency management community with opportunities to leverage resources 
and expertise.
    Mr. David Miller, Associate Administrator of the Federal Insurance 
and Mitigation Administration (FIMA) at FEMA is often quoted as saying, 
``Mitigation is the thread that permeates the fabric of National 
preparedness.'' This sentiment is echoed in the working draft of the 
National Mitigation Framework. Since FEMA and its partners began the 
process of developing frameworks under PPD-8, it has become very clear 
that mitigation cannot exist in a vacuum. Mitigation benefits from the 
whole community approach to disaster preparedness and supports the 
other four mission areas of PPD-8. Frameworks and preparedness goals 
cannot be truly representative or actionable if they promulgate 
stovepipes. The proliferation of preparedness must be achieved by 
embracing the unique elements of each mission while understanding and 
building off of their shared goal of resiliency and sustainability.
    While the Federal programs geared towards mitigation are crucial to 
the success of many activities around the country, many States have 
committed millions of dollars to building their own mitigation 
capabilities and leveraging limited resources to accomplish independent 
preparedness goals. NEMA has always supported mitigation and its 
critical role in the cycle of preparedness and continues to encourage 
investments in mitigation activities at the State level.
    Resilient communities are those that take proactive measures to 
protect investments made across the full range of infrastructure. Many 
of the messages of preparedness are geared towards dealing with or 
managing the effects of disasters, but mitigation takes preparedness a 
step further. The actions taken under the name of mitigation reduce the 
impact of the disaster before it happens and can be used to rebuild an 
affected area in a more resilient manner. While neither community 
members nor emergency managers can stop the next disaster from 
occurring, every member of the community can play an active role in 
lessening the consequences from those disasters in the future.
                               conclusion
    The States believe the often-mentioned need to ``measure 
preparedness'' is being realized all across the country. The commitment 
made by Congress, State and local governments, and Main Street 
Americans continues each day amidst constantly-evolving threats and 
hazards . . . certainly a measured change from the mindset of September 
10, 2001.
    The National Preparedness System must take the longer view and not 
the bureaucratic lowest common denominator where the only issue 
addressed is the one currently under consideration. Our view must be 
extended from being focused on the current budget or the latest grant 
cycle to the distant horizon. The National Preparedness Report should 
contribute to an understanding of what we need to accomplish. Such a 
document, however, is not the final word or sole measure of our 
efforts.
    Preparedness is an objective rather than a destination. A condition 
of perfect preparedness cannot be achieved but this should not deter us 
from our mission to try. No single report will complete this critical 
mission. The National Preparedness System holds the potential of 
drawing down risks to the Nation and its vital interests. Accomplishing 
such reductions in risk is the true business of the homeland security 
and emergency management enterprise of our Nation.
    In our Proposal for a Comprehensive Preparedness Grants Structure, 
NEMA stated our fundamental principles and values. One is very relevant 
to this discussion on the National Preparedness Report. ``Build and 
sustain a skilled cadre across the Nation that is well organized, 
rigorously trained, vigorously exercised, properly equipped, prepared 
for all hazards focused on core capabilities, and resources for both 
the most serious and most likely threats and hazards.''
    These are the hallmarks of a prepared Nation. These are what we 
should measure.
    Again, I thank you for the opportunity to testify today and look 
forward to your questions.

    Mr. Bilirakis. Thank you very much.
    Mr. Sena, you are recognized for 5 minutes.

 STATEMENT OF MIKE SENA, DEPUTY DIRECTOR, NORTHERN CALIFORNIA 
REGIONAL INTELLIGENCE CENTER, ON BEHALF OF THE NATIONAL FUSION 
                       CENTER ASSOCIATION

    Mr. Sena. Thank you, Mr. Chairman and Members of the 
committee. On behalf of the National Fusion Center Association, 
I would like to thank you for the opportunity to share our 
views on the National preparedness.
    The NFCA represents the 77 State and major urban area 
fusion centers that comprise the National network of fusion 
centers, including the Northern California Regional 
Intelligence Center, where I serve as the deputy director on 
detail from the California Department of Justice Bureau of 
Investigation.
    We think the National Preparedness Report can be a helpful 
assessment of where we stand, but we discovered that the 
National network of fusion centers was not consulted during the 
development of the NPR. As a pillar of our National 
preparedness, we recommend that FEMA, in coordination with DHS 
I&A, consult directly with the National network of fusion 
centers in the development of any future reports.
    With that said, we fully agree with the report's key 
findings that a network of State and major urban area fusion 
centers and JTTFs has significantly improved analytical and 
information-sharing capabilities among law enforcement, 
homeland security, and intelligence community entities at all 
levels of government.
    Let me give you an example of what this looks like on the 
ground. My fusion center is collocated with the FBI JTTF Threat 
Squad and the Northern California HIDTA. Our analysts have the 
ability to sit shoulder-to-shoulder with DHS intelligence 
officers, FBI, Federal, State, and local analysts. We have 
emergency managers, firefighters, EMS and public health 
workers, cops, and private-sector representatives working 
together. Subject to strict privacy guidelines, we analyze 
suspicious activity reporting from the public and California's 
network of 40,000 trained terrorism liaison officers. We share 
timely information with the FBI, DHS, State, and local entities 
on terrorism and criminal threats to our region. This is deep 
collaboration, and it did not exist before the National network 
of fusion centers was created.
    But we realize that there is still a lot of work to do. I 
outlined several on-going challenges in my written statement, 
but let me mention a few of them.
    We need to harmonize the platforms for secure messaging and 
collaboration across the National network and our Federal 
partners. We need to continue broadening and deepening fusion 
center relationships with all relevant stakeholders, and that 
includes our States, Governors, our HSAs, our UASI 
coordinators, our emergency managers, and critical 
infrastructure owners and operators. Fusion center analysts 
need equal access to classified systems, specifically FBI 
systems, to ensure top-quality threat analysis. Cleared fusion 
center personnel should have the same access as DHS, I&A, and 
FBI personnel to classified systems.
    On the issue of investment, earlier this year the NFCA 
conducted an analysis of fusion center budgets, which revealed 
that more than 60 percent of all fusion center funding is 
provided by State and local governments. Less than 40 percent 
is supported by Federal grants. At the Florida fusion center, 
for example, 10 percent is Federal funding and 90 percent is 
State and local. Homeland security intelligence and information 
sharing is a shared responsibility, and our analysis clearly 
shows that there is a shared sacrifice and a deep commitment at 
the State and local levels.
    We have real concerns about the impact of DHS grant cuts. 
Fusion centers in some States will lose analytical personnel 
beginning this year. Some may cease operating as fusion centers 
altogether. If these scenarios play out or if the budget 
sequestration takes effect next year and nondefense 
discretionary programs like preparedness grants are cut even 
more, we will lose terrorism prevention capabilities. There is 
no doubt our National preparedness will suffer from this, and 
Congress should not let that happen.
    Let me close with an example that demonstrates our 
increased preparedness. During riots in the city of Oakland, 
the California Highway Patrol received a 9-1-1 call from a 
citizen concerned about a posting they saw on a popular social 
networking site. The posting indicated that person was headed 
to the riot location with handguns and malicious intent. The 
Highway Patrol immediate relayed the information to the State 
Threat Assessment Center, our STAC, which is California's 
designated primary fusion center. The STAC located the web 
posting, which included photographs of the subject with 
firearms. Analysts at the STAC ran initial database checks on 
the subject and quickly notified my fusion center, the NCRIC, 
on the potential threat.
    The NCRIC had personnel working at the Oakland Emergency 
Operations Center to facilitate information sharing and 
intelligence support during the riots. NCRIC personnel 
conducted further analysis of the subject and disseminated an 
officer safety bulletin to 8,000 fusion center partners in the 
region. More than 1,000 on-scene law enforcement officers from 
multiple jurisdictions were receiving real-time information on 
the potential threat. All that happened within hours.
    Days later, the matter was resolved when, thanks to the 
NCRIC alert, a trained terrorism liaison officer identified the 
subject, who happened to be an employee of a secure facility.
    Key elements of National preparedness allowed this rapid 
sharing of actionable information to happen: Citizen reporting 
of suspicious activity, advanced analytical capabilities at the 
fusion center, the network of trained TLOs, and real-time 
collaboration among public safety partners.
    Mr. Chairman, our level of preparedness has increased 
dramatically in recent years, and we ask for your continued 
support as we work to enhance it even further. On behalf of the 
NFCA, thank you again for this opportunity, and I look forward 
to your questions.
    [The statement of Mr. Sena follows:]
                    Prepared Statement of Mike Sena
                              June 6, 2012
    Chairman Bilirakis, Ranking Member Richardson, Members of the 
subcommittee, on behalf of the National Fusion Center Association 
(NFCA), thank you for inviting me to testify today. My name is Mike 
Sena and I serve as deputy director of the Northern California Regional 
Intelligence Center (NCRIC), the fusion center for the San Francisco 
Bay area. I currently serve as president of the National Fusion Center 
Association (NFCA). The NFCA represents the 77 State and local owned 
and operated fusion centers that comprise the National Network of 
Fusion Centers.
    It is clear to those of us on the front lines that the state of 
National preparedness with regard to intelligence and information 
sharing has improved dramatically since 9/11, with a noticeable 
acceleration in improvements over the past few years. At the same time, 
we recognize that a range of capabilities must be further developed, 
and we are working with our Federal, State, local, and Tribal partners 
through a variety of forums to integrate the whole community and 
improve our state of preparedness every day.
    As the National Preparedness Report (NPR) states, ``fusion centers 
are focal points within the State and local environment for the 
receipt, analysis, gathering, and sharing of threat-related information 
between Federal, State, and local governments and private-sector 
partners. Fusion centers position law enforcement, public safety, 
emergency management, fire service, public health, critical 
infrastructure protection, and private sector security personnel to 
understand local implications of National intelligence.''
    In other words, fusion centers analyze National threat information 
in a local context, disseminate relevant and actionable information to 
State and local decision makers, and pass critical State and local 
information up to Federal partners in the intelligence community. All 
of this is done while protecting the privacy, civil rights, and civil 
liberties of American citizens.
    A snapshot of my own fusion center, the NCRIC, gives you a sense of 
how we can collaborate today on intelligence and information sharing. 
We are collocated with the Northern California HIDTA and the FBI Joint 
Terrorism Task Force (JTTF) Threat Squad. Our analysts have the ability 
to sit shoulder-to-shoulder with FBI analysts. We have emergency 
managers, firefighters, EMS workers, public health workers, cops, 
analysts, Federal, State, local, and private-sector representatives 
working at our fusion center. We analyze suspicious activity reporting 
and share information on terror, crime, and other threats to our 
region, and we make sure that the right organizations and decision 
makers get the information they need.
    The National Network of Fusion Centers--which includes 49 centers 
designated by State Governors as primary fusion centers, two 
territorial fusion centers, and 26 major urban area fusion centers--is 
maturing at an increasing pace. The overall level of information 
sharing and intelligence analysis Nation-wide has increased as well. We 
fully agree with the NPR's key finding that ``A network of State and 
major urban area fusion centers and JTTFs [FBI Joint Terrorism Task 
Forces] has significantly improved analytical and information-sharing 
capabilities among law enforcement, homeland security, and intelligence 
community entities at all levels of government.'' At the same time, we 
think it is helpful to review the progress we have made and address the 
primary on-going challenges we are working with our partners to solve.
    The National Network of Fusion Centers has played a major role in 
transforming the way Federal, State, local, and Tribal governments 
share intelligence information to protect the homeland. The National 
Network--together with the full complement of Federal partners--
embodies what the 9/11 Commission and the Intelligence Reform and 
Terrorism Prevention Act of 2004 envisioned a decentralized, 
distributed information sharing model to help ``connect the dots'' and 
prevent attacks. In fact, the National Network has become the central 
information-sharing point between the Federal Government and State, 
local, Tribal, territorial, and private-sector partners. The 2010 
National Security Strategy of the United States specifically cites 
fusion centers a central element in preventing future acts of 
terrorism.
    After investing $40 billion in Federal preparedness grants over the 
past decade--the lion's share of which has been directed at response 
and recovery activities--it is safe to say we are much better prepared 
to prevent, respond to, and recover from terror attacks and other 
disasters than we were prior to 9/11.
    There is good reason to pat ourselves on the back; but there is 
much to do, and there is also real reason for concern. As the dramatic 
declines in Federal grant funds that have been approved by Congress--
more than 50% for SHSP and UASI--begin to take effect at the end-user 
level this year, we will struggle to maintain the momentum that has 
developed over the past decade. Fusion centers in some States that rely 
heavily on Federal grant dollars to support operations will likely lose 
significant numbers of analytical personnel, and some may cease 
operating as fusion centers altogether. Other centers may turn their 
focus ``inward'' to become intelligence support functions within State 
or local law enforcement agencies. We were happy to see last month that 
both the House and Senate DHS appropriators recommended increases in 
funding for State and Local Programs at FEMA. But if these scenarios I 
just mentioned become reality, there is no doubt that our National 
preparedness would suffer greatly.
    That is why we think that DHS preparedness grants going forward 
should emphasize the intelligence and information-sharing element of 
our National preparedness. This must be prioritized to continue 
building and sustaining prevention and protection capabilities. That 
includes the sustainment of a strong National Network of Fusion 
Centers. Fusion centers are focused on prevention, but a growing number 
of fusion centers support the full range of preparedness activities and 
partner with the emergency management, fire, and public health 
communities as well as the private sector.
    The NFCA fears the consequences of the impending budget 
sequestration. Non-defense discretionary funding has been cut 
substantially over the last 3 years. It is shocking to us that the some 
of the hardest-hit programs have been those that support homeland 
security preparedness. FEMA State and Local Programs have been cut by 
50% over the last 3 years. We understand the desire to avoid cuts to 
Defense spending under sequestration, but after the 50% cuts we have 
sustained, we strongly urge Congress to avoid saddling NDD programs--
especially preparedness grants--with even deeper cuts. Security is 
Government's No. 1 responsibility at all levels, and that means 
Congress must take a balanced approach to deficit reduction and not hit 
State and Local Preparedness and other non-defense discretionary 
programs with further cuts.
    No more effective mechanism exists to coordinate the sharing of 
multi-source information for diverse stakeholders and facilitate broad 
collaboration on threat analysis. Consider the difficulties if the 
Federal Government had to share information directly with the 18,000 
separate law enforcement agencies in the United States. Or, consider if 
the Federal Government could only obtain value-added information from 
State and local agencies on a piecemeal basis to support terrorism 
investigations. Relative to the tens of thousands of public safety 
agencies across the county, the National Network of only 77 centers is 
a very efficient way to leverage the capabilities of an entire Nation 
to support the analysis and sharing of threat information.
    One common misperception that must be corrected is that fusion 
centers duplicate other joint law enforcement and counterterrorism 
efforts. That is not the case; they do not duplicate, they objectively 
add what others cannot add--complementing with vital granular data and 
analysis the information that others possess--to allow timely action 
against identified threats. FBI Joint Terrorism Task Forces (JTTFs) 
play the lead role in counterterrorism investigations. Owned and 
operated by the FBI with close cooperation and participation by State 
and local partners, JTTFs are key ``customers'' of fusion center 
analytical products.
    The National Network of Fusion Centers supports the dissemination 
of information from JTTFs to the broader public safety community. JTTFs 
deal primarily with terrorism and other criminal matters related to 
various aspects of the counterterrorism mission. Fusion centers 
generally take an all-crimes approach and deal with criminal, 
terrorism, and other public safety matters across multiple disciplines. 
JTTFs primarily conduct terrorism investigations and share intelligence 
with law enforcement and homeland security agencies as appropriate.
    By contrast, fusion centers analyze and assess local implications 
of National threat information and produce actionable intelligence for 
dissemination to public safety stakeholders in their area of 
responsibility and beyond. In short, fusion centers do not duplicate 
the functions of JTTFs, and JTTFs are not organized to achieve the 
missions of fusion centers. The two programs both have complementary 
and critical missions. Both are essential to effective homeland 
security information sharing and investigations. Congress must ensure 
that both efforts are fully supported if the outcome sought is 
seamless, well-informed, effective protection of this Nation.
    Most fusion centers today have an ``all-crimes'' mission--and many 
also now have an ``all-hazards'' mission--because an exclusive focus on 
terrorism simply misses the point that you cannot separate crime and 
terrorism. In addition, the analytical and sharing capabilities that 
fusion centers offer are useful in every-day crime-fighting efforts. 
Identifying trends and anomalies, analyzing suspicious activity 
reporting, and providing actionable information to decision makers is 
just as essential in fighting gangs, home invasions, human trafficking, 
and on-line child exploitation as in preventing terrorist attacks. In 
short, the ``fusion process'' is valuable in protecting all communities 
against all threats.
    Most law enforcement officers will tell you that the best 
intelligence collaboration and information sharing happens when 
relationships among agencies and individuals are built on trust and 
experience. The right policies, technology, processes, protocols, and 
funding are essential enablers of effective information sharing, and 
we've seen dramatic improvements in these areas since 9/11. But 
information sharing is fundamentally about creating, building, and 
sustaining RELATIONSHIPS. Legislation and mandates can only get us so 
far. When it comes to leveraging the full scope of the public safety 
community in the United States for homeland security purposes, a 
constant effort to build relationships and develop trusted mechanisms 
is how it will get done.
    That's where the NFCA comes in. It is our association's mission to 
support the development of the National Network of Fusion Centers and 
improved information sharing. Since we formed 3 years ago, we have made 
a point of fostering relationship development across the network and 
vertically among Federal, State, local, Tribal, territorial, and 
private-sector stakeholders. We work regularly with these stakeholders, 
and we just approved the addition of a representative from the Major 
Cities Chiefs Intelligence Commanders Group on the NFCA Executive 
Board. Progress does not happen overnight. Those who expect a switch to 
be flipped and have instant and seamless sharing of information on 
threats across all possible stakeholders are bound to be disappointed. 
The appropriate vision for intelligence collaboration and information 
sharing was laid out by the 9/11 Commission and was emphasized in the 
Intelligence Reform and Terrorism Prevention Act of 2004: A 
decentralized, distributed network that involves all levels of 
government and collaborates routinely on information analysis and 
sharing with Federal intelligence and law enforcement partners.
    The thankless business of improving intelligence and information-
sharing preparedness is often carried out in efforts coordinated by the 
Criminal Intelligence Coordinating Council (CICC). The CICC is a strong 
and trusted mechanism for coordinating all the relevant stakeholders in 
this mission. The CICC and its research arm--the Global Intelligence 
Working Group (GIWG)--have been responsible for developing and 
fostering Nation-wide adoption of standards for sharing criminal 
intelligence.
    The GIWG and the CICC focus on the development of documents that 
have the force of National policy and are widely adhered to. They have 
facilitated the development of the National Criminal Intelligence 
Sharing Plan, Law Enforcement Analytic Standards, technical data 
exchange standards, Fusion Center Privacy Policies, Fusion Center 
Guidelines, Baseline Capabilities for Fusion Centers, and have 
contributed to the National Strategy for Information Sharing, among 
other important initiatives. This institutionalized collaboration in 
the development of policy is needed to ensure the continued commitment 
and building of trust among the greatest possible number of 
stakeholders. It is how improvements in National preparedness in this 
area will continue to be matured.
    Despite our progress, we are concerned that 10 years without a 
major attack has led to a level of apathy. All stakeholders must 
continue to invest in the long-term effort to improve our capacity to 
share information. If the Federal Government does not continue to take 
steps to ensure the National Network is strengthened and sustained, we 
will start moving away from the vision of the 9/11 Commission and 
IRTPA, leaving the Nation more vulnerable to successive attacks on 
public safety--large and small--that could have been prevented through 
a well-supported National Network of Fusion Centers.
    We think the National Preparedness Report shows a continued need 
for focused investment in the Network as the core homeland security 
information sharing and intelligence analysis facilitator in 
partnership with State, local, Federal, and Tribal law enforcement, 
fire, emergency management, and public health agencies. To the extent 
that the NPR is a ``roll-up'' of individual State preparedness reports, 
law enforcement entities in many States have not been as integrated 
into the development of the State reports as they should be. In fact, 
it appears that the methodology used to create the NPR is not as 
analytically rigorous as it should be. The National Network of Fusion 
Centers was not consulted in a systematic way. If the Network is a 
pillar of our National preparedness, then the report should not be 
developed without a coordinated process directly with the fusion 
centers. As future State preparedness reports are generated, the NFCA 
recommends that Homeland Security Advisors and State Emergency Managers 
integrate information directly from fusion centers in their States. We 
are pleased that data was integrated into the NPR from the detailed 
assessment of the National Network of Fusion Centers that is conducted 
annually by the DHS Office of Intelligence and Analysis. But the 
appropriate stage for engagement of the fusion centers in preparedness 
reports is also at the State level. Going forward, the NFCA will 
encourage direct State-level interactions in addition to the use of 
data collected through the annual fusion center assessment process.
    While we agree with the NPR's key finding on the National Network, 
we do not think the report provides helpful context for the capability 
percentage ratings it lays out. There have been dramatic improvements 
in recent years, and I would argue that these improvements are actually 
accelerating. We all recognize that the wave of a magic wand will not 
result in an ideal operating situation. When you are in the business of 
developing, shaping, and maintaining an intelligence and information-
sharing culture across governmental and jurisdictional lines, you are 
constantly pressing for incremental improvements over time.
    And that is what we've seen. From the development and 
implementation of the Nation-wide Suspicious Activity Reporting 
Initiative (NSI), to the enhanced support provided to the National 
Network by DHS Intelligence & Analysis, to increased FBI/JTTF 
interactions and collocation with fusion centers, to improvements in 
analysis and sharing technology, to deeper relationships across the 
National Network and within States, our preparedness has gotten 
steadily more robust. Through our work on the CICC, we have had 
substantial input into the refresh of the National Information Sharing 
Strategy. I think that strategy will lay out a way ahead that reflects 
both the progress made and the focused investments of energy and 
resources that will be needed over the next decade.
    We can see that a National intelligence enterprise is being created 
by connecting fusion centers, their information sharing and analysis 
partners, JTTFs, the HIDTA Investigative Support Centers, the RISS 
centers, major city and major county intelligence centers, the Nation-
wide SAR Initiative, and the FBI Field Intelligence Groups (FIGs). This 
enterprise has been woven into a protective fabric for our Nation. The 
enterprise has matured because partners have rolled up their sleeves 
and created solutions that are crossing boundaries efficiently. Strong 
leadership from the DHS Office of Intelligence and Analysis, the Office 
of the Program Manager of the Information Sharing Environment, the 
Bureau of Justice Assistance at the Department of Justice, the Nation-
wide Suspicious Activity Reporting Initiative's Program Management 
Office (NSI-PMO) and the Federal Bureau of Investigation has resulted 
in the strengthening of governance structures that are intended to 
lower barriers between Federal, State, and local organizations.
    Of course there is a lot of room for improvement. Intelligence and 
information-sharing capability gaps that we must continue to address 
include:
  <bullet> standardized or harmonized platforms for secure messaging 
        across the National Network of Fusion Centers and with our 
        Federal partners;
  <bullet> training and retention of high-quality analytical personnel 
        across the National Network;
  <bullet> sustainable funding support for the National Network through 
        DHS preparedness grants;
  <bullet> broadening and deepening of fusion center relationships with 
        all relevant stakeholders in our States, including Governors' 
        homeland security advisors, emergency managers, and critical 
        infrastructure owners and operators;
  <bullet> tighter coordination of information collection, analysis, 
        and sharing with our Federal partners;
  <bullet> secure and reliable access to classified systems, 
        specifically FBI systems, and reforms that allow cleared fusion 
        center personnel to have the same access as DHS I&A and FBI 
        personnel to FBI classified systems; and
  <bullet> recognition of security clearances across agencies and 
        domains to ensure timely and efficient access to relevant 
        information.
    One issue that we are currently dealing with provides a good 
illustration of how far we have come in terms of the intelligence and 
information-sharing element of National preparedness, and the 
challenges that still remain.
    Earlier this year the FBI Terrorist Screening Center halted sharing 
of ``encounter notifications'' with fusion centers in the manner in 
which they previously had been shared. Briefly, encounter notifications 
refer to the notices sent by the TSC to fusion centers regarding any 
Governmental agencies' encounters with individuals on the consolidated 
Terrorist Watchlist in the interior of the country--for example in 
traffic stops. The NFCA discussed the issue directly with TSC 
leadership and others at the FBI. We convened a conference call with 
the TSC, FBI, DHS, NFCA, International Association of Chiefs of Police, 
National Sheriffs' Association, Major County Sheriffs' Association, 
Major Cities Chiefs Association, Association of State Criminal 
Investigative Agencies, CICC, and the Governors' Homeland Security 
Advisory Council to address the issue. Just days later we had worked 
out a way ahead to ensure encounter notifications were available to all 
fusion centers going forward. Today the TSC, DHS, and State, local, and 
Tribal partners are working to address the issue. This kind of broad-
based and real-time effort to improve intelligence and information 
sharing would have been extremely difficult 10 years ago, or even just 
5 years ago. The process is never easy, but this enhanced 
coordination--enabled by the fusion centers--ensures that we continue 
on the path to greater preparedness.
    We cannot have true preparedness without true information sharing. 
We need to continue to work with the FBI and all our Federal partners 
to improve sharing of critical information while maintaining 
operational security and preserving citizens' privacy and civil 
liberties. In addition, we have to continue working with our Federal 
partners to develop secure communications platforms that enable 
efficient information sharing and analytical collaboration. We continue 
to see several different information-sharing platforms in use across 
the 18,000 State and local law enforcement agencies in this country. No 
single entity is in a position to mandate standardization, but efforts 
continue to ensure data can be shared and received when needed. Event 
deconfliction is another major area of needed focus. True information 
sharing includes both threat information and event deconfliction. We 
believe we need a single National deconfliction system. While there are 
several good examples of event deconfliction systems in use by 
different law enforcement agencies, we need to work toward 
standardization or interoperability of systems.
    Overall, we have made excellent progress, but we are not where we 
want to be. Not a day goes by without conversations among partners that 
are serving to build the trust, confidence, and relationships necessary 
to realize true information sharing.
    Congress can also play a helpful role. We note that just last week 
the House passed two bills--H.R. 2764, the WMD Intelligence and 
Information Sharing Act, and H.R. 3140, the Mass Transit Intelligence 
Prioritization Act--that have intelligence analysis and information 
sharing through the National Network of Fusion Centers as a primary 
purpose. Both pieces of legislation are examples of how Congress can 
support the incremental improvements we need to make over time to 
advance our homeland security intelligence- and information-sharing 
capabilities.
    Another way Congress can support these advances is by ensuring 
sustained grant support for the National Network. This committee 
shepherded the Implementing 
9/11 Commission Recommendations Act of 2007. Section 2006 of that Act 
mandated that 25% of the UASI and SHSGP preparedness grants be 
allocated by recipients to ``Law Enforcement Terrorism Prevention 
(LETP) Activities.'' This is how many States support their primary 
designated fusion centers with DHS grants. But there is no single 
funding model for fusion centers, and there is no guarantee that the 
LETP portion of DHS grant funds will be sufficient to support an 
adequate level of functionality at every fusion center in every State. 
A required fusion center investment justification in States' 
applications for DHS preparedness grants helps, but it does not ensure 
that allocated funds are sufficient to support a robust fusion process 
in each State.
    Earlier this year the NFCA conducted a survey of its members which 
revealed that more than 60% of all fusion center funding is provided by 
State or local governments. Less than 40% is supported by Federal 
grants.\1\ In addition, since fusion center operating budgets do not 
include the salaries of ``donated'' personnel assigned by local and 
State agencies to fusion centers, the contribution ratio of State-to-
Federal financial contributions is likely closer to 70/30. This 
concrete data demonstrates that, consistent with the spirit of 
Presidential Policy Directive/PPD-8, homeland security intelligence and 
information sharing is a shared responsibility with shared benefits, 
and that all stakeholders are sharing in the required investment.
---------------------------------------------------------------------------
    \1\ National Fusion Center Association membership survey, March, 
2012. Fifty-six out of the 77 fusion centers responded. Survey 
responses were not independently audited or verified.
---------------------------------------------------------------------------
    The data also help to dispel a myth we often see reported that 
fusion centers are DHS entities. DHS did not create the fusion centers, 
and they do not operate them. No fusion center is funded exclusively 
with DHS grant dollars. For example, Federal funding through SHSGP 
constituted 10% of the Florida Fusion Center's $2.7 million budget in 
fiscal year 2011. At the Joint Regional Intelligence Center (JRIC) in 
Los Angeles, combined SHSGP and UASI grant funding comprised just over 
40% of the $12.7 million budget in fiscal year 2011.
    DHS recognizes the value of a robust National Network of Fusion 
Centers as critical to homeland security intelligence analysis and 
information sharing, and they have focused resources and other support 
to the centers as an invaluable partner to help nurture the National 
Network. Secretary Napolitano, Under Secretary for Intelligence and 
Analysis (I&A) Caryn Wagner, and Deputy Under Secretary for I&A Scott 
McAllister deserve great credit for requiring that States include an 
investment justification for fusion centers in their applications for 
UASI and SHSGP funding beginning with the fiscal year 2011 grant 
guidance. We were pleased to see this guidance remain in place in 
fiscal year 2012. This sends a clear signal--the right signal--that 
Federal-State-local partnerships to receive, gather, analyze, and share 
information to prevent terrorism will remain a top priority for DHS 
investment.
    Grant funds allocated to fusion centers help to build and sustain 
``critical operational capabilities'' or COCs--defined as the ability 
to receive, analyze, disseminate, and gather information on threats to 
the homeland. Going forward, NFCA strongly supports the continued 
fusion center investment justification requirement, since this will 
assure that gaps in critical operational capabilities identified in the 
annual fusion center assessments are addressed across the National 
Network.
    As the threat of homegrown violent extremism (HVE) has risen, the 
role of State and local law enforcement has become indispensable in 
detecting and preventing terror attacks. Efforts are underway through 
the Nation-wide Suspicious Activity Reporting Initiative (NSI)--
supported by the Department of Homeland Security and the Department of 
Justice--to train State, local, and Tribal law enforcement officers to 
recognize and report behavior-based suspicious activity. The fusion 
centers are essential in this effort as both training hubs and 
receivers of suspicious activity reporting. As the newly-published NSI 
Annual Report for 2011 states, ``fusion centers are uniquely situated 
to provide an analytic context to SAR data, an essential element of 
NSI's overall mission.''
    The NSI Annual Report indicates that as of March, 2012 68 fusion 
centers have the capability to contribute and share SARs. More than 
250,000 front-line law enforcement officers have received NSI Line 
Officer Training. Training tailored to other public safety sectors has 
also been developed, which will expand the ability of those in the best 
position to notice suspicious activity will know what to do. The 
quality and quantity of SARs have increased over time, especially as 
implementation of NSI has progressed. As of March, more than 43,000 
searches had been conducted by analysts authorized to use the system, 
and more than 17,000 SAR reports were available in the system.
    There is still a lot to be done to fully implement NSI, but the 
progress has been encouraging. Over the past year we have worked 
closely with the FBI and the NSI Program Office to address challenges 
related to input of SAR information into accessible databases for 
timely analysis. The NSI recently implemented a technical solution that 
allows fusion center SAR information to be submitted to the NSI 
Federated Search system and simultaneously to the FBI's eGuardian 
system. In addition, the NFCA signed onto a ``unified message'' earlier 
this year with several Federal, State, and local law enforcement 
organizations regarding suspicious activity reporting that emphasizes 
collaboration, sharing, and lanes of responsibility, while calling for 
advanced training and strict adherence to the privacy and civil rights 
policies and responsibilities that we are obligated to observe.
    Information sharing and intelligence collaboration efforts continue 
to develop. We are intimately involved in the refresh of the National 
Information Sharing Strategy. We are pleased with the way the 
intergovernmental discussions have gone over the past year, and the 
quality of ideas put on the table has been good. Kshemendra Paul, the 
Program Manager for the Information Sharing Environment, has made 
substantial contributions and has ensured that our perspectives are 
carefully considered. There is a sense of real commitment to make the 
revised strategy a document that will serve us well and set a clear 
direction. We believe the strategy should be a living document that is 
updated more frequently and flexes as developments occur.
    In addition, the NFCA has begun working with DHS to conduct an 
exercise later this year regarding Critical Operational Capability No. 
1--Receive. This is likely to involve the entire National Network of 
Fusion Centers and will help assess progress and identify areas for 
improvement. Fusion centers continue efforts to train ``fusion liaison 
officers'' or ``FLOs''. Thousands of State, local, and Tribal law 
enforcement officers have received FLO training and the centers are 
committed to continue this training. Supporting this training is one of 
the primary reasons that we need to ensure sustained funding is 
available.
    Another example of our enhanced level of preparedness is the event 
that I plan to attend immediately after this hearing: A secure video 
teleconference jointly held by DHS and FBI along with the National 
Network of Fusion Centers and Governors' homeland security advisors. 
The call will outline the current threat environment, and will also 
consider suspicious activity reporting, SAR training, and engagement 
with the public.
    We have made tremendous progress and our level of preparedness has 
increased significantly in recent years. Fusion center directors are 
committed to continuous improvement and are engaging at the operational 
and strategic levels every day across the National Network and with our 
Federal partners. We continue to push for more advances, build trust, 
and overcome obstacles. I realize that these activities rarely rise to 
the level of Congressional awareness, but the examples I mentioned are 
just a few of the many efforts happening today. As a result of 
sustained focus at all levels, we are better prepared to gather, 
analyze, and share information and intelligence that improves our 
homeland--and hometown--security. We ask for your continued support for 
these initiatives.
    Thank you again on behalf of the National Fusion Center Association 
for the opportunity to provide our perspectives.

    Mr. Bilirakis. Thank you very much.
    Now to Dr. Benjamin. I apologize if I mispronounced your 
first name. But you are recognized, sir, for 5 minutes.

  STATEMENT OF GEORGES C. BENJAMIN, M.D., EXECUTIVE DIRECTOR, 
               AMERICAN PUBLIC HEALTH ASSOCIATION

    Dr. Benjamin. Mr. Chairman, you are right on target. It is 
Georges Benjamin.
    Let me thank you very much for having me, Mr. Chairman and 
Members of the committee, to represent the views of the public 
health community.
    We have certainly had a long and proud history of providing 
emergency preparedness in public health emergencies. As you may 
know, we have really been challenged for many, many years of 
underinvestment in public health, but since September 11, 2001, 
and of course the subsequent anthrax attacks in the years that 
followed, we have really made a substantial investment. I have 
no question that that has improved the health and well-being 
and preparedness of the Nation.
    However, there are concerns of where we have gone because 
of infrastructure loss and funding loss. I think the report is 
a good report, that the writers ought to be commended. But I do 
want to add some emphasis on one area of the report where they 
talk about some of the infrastructure loss in the public health 
system.
    During the anthrax attacks, I actually happened to be the 
secretary of health in Maryland. In my testimony, we learned 
several lessons, and let me just focus on a couple of them. One 
was that preparedness is everybody's second job. No matter 
whether or not you are an administrative clerk or an 
epidemiologist in the maternal/child health program, or whether 
you do the AIDS programs, preparedness is everybody's secondary 
job. The second thing, more importantly, we were lucky. Had we 
had another big event that occurred, we would have been really 
challenged to respond.
    In light of some of those concerns, I would just point out 
to you a big pertussis outbreak that is going on right now in 
Washington State. Pertussis is whooping cough. Most of us have 
certainly been vaccinated as children for pertussis, and yet 
they have had for the last 21 weeks an amazing outbreak that 
has occurred. They have had over 1,900 cases, compared to 154 
cases during the same time period last year. That outbreak 
continues to grow. There are lots of, probably, reasons for 
that: Some changes in vaccine formulation, people who haven't 
gotten vaccinated. But having said that, they are very 
concerned about their inability to respond as effectively as 
they would like to because of staffing shortages that have 
occurred in their State, at least in some parts of their State.
    Also, we have had reductions in some of the public health 
laboratories in the Nation. An excellent example here is in New 
Jersey, where the number of scientists certified to work on 
select agents, the ones you are most concerned about with 
terrorism, is down from 15 to 5. I think you would agree that 
that means that their surge capacity is greatly impaired.
    As you look at the workforce in public health, we have lost 
over 52,000 people since 2008 within the public health 
workforce. If you look at programs, for example, that have been 
downsized, about 23 percent of the local health department 
programs, local health departments in the country, have cuts in 
their emergency preparedness programs, specifically, in 
addition to many, many other programmatic cuts.
    Of course, the biggest challenge we have is around funding. 
I call it yo-yo funding, where we put a fair amount of money 
into something, respond to a crisis, and then just before we 
really get it all taken care of, we begin to then down-cycle 
the funding. That doesn't build a sustainable, long-term 
system. I think if we did that for defense, we would be in a 
terrible, terrible shape.
    I think as we--my testimony also talks about our concern 
about many of the cuts. There is not, obviously, enough time to 
go through all of those various concerns about funding. But 
having said this, I think we need to begin looking at a much 
more sustainable, long-term funding mechanism that helps us 
integrate public health within the rest of emergency 
preparedness. We have gone a long way to doing that. I mean, we 
are no longer showing up at emergencies, like we did before 
2001, exchanging business cards. That does not occur anymore. 
Public health folks know the emergency preparedness folks, they 
know the police and fire and EMS folks. They work very, very 
well together. But the erosion of our system, I think, remains 
a big concern to us, particularly if we have something that is 
catastrophic.
    With that, I thank you very much for your attention and 
certainly will answer any questions that you have.
    [The statement of Dr. Benjamin follows:]
               Prepared Statement of Georges C. Benjamin
                              June 6, 2012
    Chairman Bilirakis, Ranking Member Richardson and Members of the 
subcommittee, my name is Dr. Georges Benjamin and I am the executive 
director of the American Public Health Association (APHA). Founded in 
1872, APHA is the oldest, largest, and most diverse organization of 
public health professionals in the world. The association aims to 
protect all Americans and their communities from preventable, serious 
health threats and strives to assure community-based health promotion 
and disease prevention activities and preventive health services are 
universally accessible in the United States. APHA represents a broad 
array of health providers, educators, environmentalists, policy-makers, 
and health officials at all levels working both within and outside 
Governmental organizations and educational institutions. I appreciate 
the opportunity to appear before you today to discuss the state of 
public health emergency preparedness and thank you for your leadership 
on this important topic.
    The Nation's public health system has a long and proud history of 
providing services during public health emergencies by providing a 
range of services from acute infectious disease detection, post-
disaster environmental risk assessment, and long-term surveillance for 
emerging post-disaster threats to health. The public health system then 
works to make us safer by preventing or mitigating these risks to 
health using a variety of clinical and nonclinical interventions. For 
many years we as a Nation had underinvested in public health system 
emergency preparedness, however, since the terrorist attacks on 
September 11, 2001 and the subsequent anthrax attacks later that year, 
significant investments in public health preparedness and response have 
occurred. There is no question that these investments have greatly 
improved the Nation's overall ability to prevent, respond to, and 
recover from public health emergencies including bioterrorism, chemical 
incidents, radiological and nuclear events, infectious disease 
outbreaks and natural disasters. However, we still have a long way to 
go to achieve a level of optimal preparedness. In fact, we have had 
significant regression in the infrastructure needed to achieve this 
desired level.
    The Federal Emergency Management Agency's 2012 National 
Preparedness Report highlights many of the improvements we have seen 
since 2001 across a wide range of preparedness activities and 
highlights several areas where we have made enormous progress. I 
believe the report authors should be commended for the areas where they 
have focused most intently. There is one area of the report however, 
that does require more detail to give the committee a fuller 
understanding of the Nation's level of public health and medical 
preparedness. That area is found on page 47 where a key finding of the 
reports notes ``The Nation has built a highly respected public health 
capability for managing incidents, but recent reductions in public 
health funding and personnel have impacted these capabilities.'' I 
would like to give a more complete explanation about the impact that 
current funding and workforce reductions have on the ability of the 
public health system to respond not only to public health emergencies, 
but also to undertake the day-to-day responsibilities that keep our 
communities safe and healthy.
                the state of public health preparedness
    There are core functional capacities you want in a public health 
preparedness system. You want to know when a disease syndrome first 
enters a community, the ability to rapidly identify the cause of the 
disease and how it is contracted, the ability to conduct accurate new 
case findings and tracking, the ability to communicate effectively to a 
range of stakeholders (including the public) and disease containment 
and treatment ability. In a terror attack the forensic component of 
these efforts magnify the importance of these requirements. Over the 
past several years we have had significant erosion in our core capacity 
to do many of these things. Let me start by putting it in perspective 
and relate the critical role Federal programs and funding play in State 
and local public health emergency preparedness and response activities.
    During the anthrax attacks in October 2001, I was the secretary of 
health for the State of Maryland. Baltimore City and all 23 of 
Maryland's counties responded in order to treat people who had been 
exposed through the U.S. postal system or in the Hart Senate Office 
Building and to address, State-wide, white powder reports which 
paralyzed the Nation. This experience taught me several important 
lessons:
  <bullet> A good plan is an essential first step.--Fortunately for 
        Maryland, we had previously developed a public health 
        preparedness plan and had some early capacity because of my 
        interest in preparedness (I am an emergency physician) and more 
        importantly, a small grant from the U.S. Centers for Disease 
        Control and Prevention (CDC). We also learned how important it 
        is to actually exercise the plan because it had been untested 
        and many lessons were learned from actually having to use it.
  <bullet> Disease response does not recognize borders.--The index case 
        in the Washington, DC area was a Maryland resident who was 
        exposed in Washington, DC and hospitalized in Virginia. Only 
        the Federal Government can build a regional capacity to address 
        this kind of disease exposure. No single jurisdiction could 
        have handled this alone. A robust surveillance system, 
        sustained training, and local, State, and Federal cooperation 
        is required for an adequate response.
  <bullet> Delivering countermeasures is complex.--The Maryland plan 
        anticipated the need to get pharmaceuticals in large amounts 
        quickly and recognized the turnaround time to get the contents 
        of the strategic National stockpile (SNS) was longer than we 
        could wait. We had a short-term plan to utilize the pharmacy 
        system from our mental health system for pharmaceuticals 
        (Cipro) until the SNS was available. This temporary system 
        worked but we recognized the benefits of the SNS as soon as it 
        became available because of the prolonged nature of the Nation-
        wide response to the anthrax letters. We designed an on-the-
        spot distribution system and when the SNS supply arrived we 
        distributed it to local health departments all over the State 
        during the night. If the SNS did not exist or if we had not 
        owned our own hospitals we would not have had any meaningful 
        capacity to respond. Those exposed would have had anthrax in 
        their systems for much longer periods of time and we may have 
        had many other serious cases.
  <bullet> Communication is a big deal.--Anthrax is a rare disease to 
        the general practicing medical community. Over days and weeks 
        our call center was swamped with calls from health 
        professionals looking for current diagnostic and therapeutic 
        information about anthrax. We also had numerous calls from the 
        general public and the media seeking reliable information. Our 
        ability to utilize a range of communication tools from 
        automated telephone responses, our web page, press releases, 
        news conferences and live call takers was essential to keeping 
        the people informed and calm. The newly instituted Health Alert 
        Network was an important enterprise-wide communication tool 
        that provided reliable public health information in a timely 
        way on a regular basis. These efforts were coordinated with a 
        range of State, local, and Federal agencies. In those days 
        every health department in America did not have ready access to 
        email as we do today. Clearly our National capacity to respond 
        is more effective when we have a system that can leverage all 
        of the available components.
  <bullet> Preparedness is everyone's secondary job for surge 
        capacity.--Our disease surveillance staffs were superb but we 
        were often challenged to keep up with our day-to-day 
        responsibilities before the attacks. When the attacks occurred, 
        we utilized many other staff from across the agencies that were 
        in programs unrelated to public health preparedness to use 
        their skills in support of this emergency response. In this 
        way, chronic disease epidemiologists, maternal child health 
        epidemiologists, and HIV/AIDS workers were recruited to help. 
        Often working 18 to 20 hours a day, sleeping on the floor or on 
        cots in their offices, these heroic public servants did what 
        was required to respond to this effort. Erosion in other 
        programs unrelated to preparedness has a negative impact on the 
        ability of a public health agency to scale up when a disaster 
        occurs.
  <bullet> A robust National public health laboratory network is 
        essential.--Maryland is fortunate to have had one of the best 
        public health laboratories in the country. A public health 
        laboratory is very different from a hospital or clinical 
        laboratory. We served as the reference lab for many lab 
        samples, the prime testing lab for many clinical and 
        nonclinical samples and the link to the FBI for forensic 
        samples. Our laboratory was swamped with samples from sources 
        all over Maryland and the District (as their laboratory did not 
        have appropriate equipment to do the testing at the time). Over 
        300 samples a day came into the lab for several weeks. All of 
        the positive samples required follow-up with the sender and had 
        to follow a chain of custody to be sent to the FBI. This 
        relatively limited and small, but serious incident (five 
        letters), completely inundated our system. It was a massive 
        undertaking for months and a staffing and logistical challenge. 
        The Federally-supported laboratory response network played a 
        critical role in our response activities.
  <bullet> We were lucky.--Five letters resulted in a Nation-wide event 
        with 17 cases of illness, five deaths, more than 33,000 people 
        being placed on antibiotics and thousands of emergency 
        responses because of the fear that any white powder discovered 
        could be anthrax. In Maryland, an additional naturally-
        occurring outbreak such as a food-borne outbreak at a 
        restaurant, a wedding, or a second terror attack with another 
        agent would have been impossible to manage effectively with our 
        existing State infrastructure at the time.
    I have followed the progress of Maryland's efforts since I left in 
December 2002 and have been generally pleased that the State and the 
agency have continued to improve on their preparedness system and have 
effectively switched to an all-hazards approach, as has most of the 
Nation. Yet, I remain concerned about erosion in capacity of the system 
when I see what is happening in places like Washington State where an 
outbreak of pertussis continues to grow and response capacity is 
hampered by the deterioration of the local public health infrastructure 
in particular.
    The State of Washington began experiencing an outbreak of pertussis 
about 21 weeks ago. Pertussis is a disease commonly found in childhood 
that has been greatly eliminated because of a safe and effective 
vaccine given during childhood. As of May 26, 2012 there have been 
1,947 reported cases, 127 under the age of 1 with 30 of them 
hospitalized. As of this reporting there have not been any deaths. This 
is compared to 154 reported cases during the same time period in 2011. 
The outbreak continues to grow. While the exact causes of the outbreak 
are unclear, it may be related to children not getting their full 
series of vaccinations and waning protection in the previous vaccine 
due to changes in the vaccine formulation.
    Responding to this outbreak is believed to be hampered by staffing 
shortages in some parts of the State (as reported in the New York Times 
on May 12, 2012 and in my personal communications with the Washington 
State Health Officer). My concern is that this is a superb State health 
department with solid leadership that has to contend with dwindling 
resources particularly at the local level. According to reports 
mentioned above, local health departments in Washington have 
experienced reductions in funding due to the recession, resulting in 
diminished staffing levels, and as a consequence, affected their 
ability to respond in a more effective manner. I am very concerned that 
this represents a microcosm of what is awaiting the rest of the Nation 
as our infrastructure further dwindles. If we cannot address a large 
but classic outbreak I have real concerns about our ability to respond 
effectively to a novel or an intentional one.
    Our Nation's public health laboratories are also facing serious 
challenges due to funding and staffing reductions. According to surveys 
conducted by the Association of Public Health Laboratories, which 
represents laboratories with a public health mission, many public 
health laboratories have also lost staff and have had to curtail other 
important programs in order to maintain preparedness capabilities. The 
State Public Health Laboratory in California, for instance, had to 
eliminate a training program intended to produce laboratory workforce 
leadership in order to maintain adequate preparedness funding. In New 
Jersey, the number of scientists certified to work on select agents 
(testing on biothreat materials, like anthrax) has been reduced from 15 
down to 5, threatening the State's laboratory surge capacity in the 
event of a public health emergency or disease outbreak. Massachusetts 
has also been forced to reduce other areas of funding in order to 
maintain its preparedness activities, including reductions in 
laboratory oversight management and quality assurance.
    As a Nation we are facing two major challenges that this committee 
should be aware of as you assess the state of public health emergency 
preparedness in America: The public health workforce crisis and 
worsening fiscal support.
                   an eroding public health workforce
    Our State and local health departments continue to struggle with 
significant job losses and painful budget cuts. Unfortunately, State 
and local budgets have not recovered from the recession. Since 2008, 
more than 52,000 public health jobs have been lost at local health 
departments and State and regional health agencies. These numbers 
represent 17 percent of the State and territorial public health 
workforce and 22 percent of the local public health workforce.
    State and territorial health agencies continue to report on-going 
job losses and budget cuts to critical public health programs. 
According to the most recent survey of State health agencies conducted 
in March 2012 by the Association of State and Territorial Health 
Officials, between July 1 and December 31, 2011, 30 percent reported 
staff layoffs, 41 percent reported the loss of staff through attrition, 
24 percent reported cutting entire programs and 46 percent reported a 
reduction in services provided. Cumulatively, since 2008, the numbers 
are even greater with 56 percent reporting layoffs, 62 percent cutting 
entire programs, and 91 percent reporting a reduction in services 
provided.
    The situation is just as dire among local health departments. 
According to a January 2012 survey of local health departments 
conducted by the National Association of County and City Health 
Officials, 57 percent of local health departments reduced or eliminated 
at least one public health program in 2011, with emergency preparedness 
activities taking the biggest hit. Twenty-three percent of local health 
departments reported cuts to emergency preparedness programs in 2011. 
The effects of the recession continue to be felt among local health 
departments with 41 percent of departments reporting that their current 
year's budget is less than the previous year and 41 percent reporting 
that they expect additional cuts in the coming fiscal year.
       a pattern of destructive cyclic funding for public health
    Funding for public health programs has a history of ``yo-yo 
funding.'' That is, funding continues until we get improvements in 
capacity and improved health outcomes, then the funding cycles downward 
only to find the problem return often at an increased overall cost. 
This happens at the Federal, State, and local level. An unreliable, 
insufficient, and unsustainable funding pattern erodes system 
preparedness for all hazards and threats and leaves our Nation at risk.
    Like many domestic programs critical Federal dollars that fund many 
of the public health emergency preparedness activities that fall to our 
State and local health departments continue to decline. According to 
the report Ready or Not? Protecting the Public from Diseases, 
Disasters, and Bioterrorism issued by Trust for America's Health in 
December 2011, from 2005 to 2012, Federal funding for State and local 
preparedness activities has been reduced by more than 38 percent (when 
adjusted for inflation).
    CDC's Public Health Emergency Preparedness (PHEP) program is the 
foundation and bedrock of public health preparedness in the United 
States. The program provides critical resources, scientific expertise, 
and coordination to ensure that our State and local health departments 
are prepared to respond to an emergency and to ensure that all 
Americans will be protected. Unfortunately, funding for this critical 
program has decreased significantly over the past several years. 
Reductions to this funding will certainly limit the ability of our 
health departments to monitor, assess, and respond to public health 
threats in their communities. These cuts could impact the capacity of 
disease surveillance staff to detect an outbreak or a bioterrorist 
attack, which would limit the ability of State laboratories to quickly 
respond to the surges in testing that would be needed, and hamper the 
ability of State and local health authorities to respond adequately in 
order to protect the public from exposure or ensure the rapid 
distribution of life-saving medicine and medical supplies. 
Unfortunately, the President's budget request would reduce support for 
State and local preparedness by an additional $8 million in fiscal year 
2013.
    Funding for the Strategic National Stockpile is also at risk. As 
noted earlier the SNS is an essential component of the Nation's ability 
to ensure an adequate supply of critical medicine and equipment to aid 
State and local public health agencies are armed with the tools they 
need to respond to a National health emergency. Experience has shown 
how valuable the SNS supplies of antibiotics, chemical antidotes, and 
other life-saving medicines and equipment are when local supplies 
become depleted during an emergency. CDC's ability to maintain the SNS 
and State and local government's ability to implement the distribution 
are dependent on a well-funded, agile, and reliable system. In addition 
to supplies, it is the strategically coordinated distribution plans 
that Federal, State, and local government have designed and are 
required to exercise regularly that will impact how quickly and 
thoroughly these supplies are distributed. Sustained funding is 
essential to maintain a sense of readiness for this capacity.
    Unfortunately, funding for the SNS was reduced by $57 million in 
fiscal year 2012 and the President's fiscal year 2013 budget request 
proposes cutting this critical funding by an additional $48 million in 
fiscal year 2013. By cutting this funding, we jeopardize efforts to 
develop initiatives to reduce distribution response times. Reductions 
in this funding also put the Nation at risk of being unprepared and 
unable to provide needed medication to all persons affected by a public 
health emergency. The SNS supply must be replenished when the shelf 
life of the medications expire. Additionally, the facilities maintained 
and staff involved in the production of the medical countermeasures 
must be in place to appropriately respond to the changing needs of the 
stockpile. Speed, sufficient supplies and staff who know and have 
practiced using the plans are all essential to a rapid response and 
recovery.
    Another key Federal program that provides needed resources to State 
and local health departments to prepare and respond to all hazards is 
the Hospital Preparedness Program (HPP) administered by the HHS Office 
of the Assistant Secretary for Preparedness and Response. Funding 
provided through this critical program enhances and improves overall 
medical surge capacity at hospitals and other key components of the 
health care system in a public health emergency. We have seen the value 
of this program very recently in Joplin, Missouri. After the tornadoes 
devastated that city last year, roughly 30 percent of the city of 
Joplin's infrastructure was destroyed including St. John's Regional 
Medical Center, which had to evacuate all 183 patients from the 
facility. Equipment funded through the HPP assisted staff in evacuating 
patients down as many as eight flights of stairs and a fully 
operational 60-bed mobile medical unit was deployed and fully 
operational within a week of the tornado. This program, unfortunately, 
is also at risk. The President's fiscal year 2013 budget request 
proposes to reduce funding for HPP by $142 million or 36 percent.
    In addition to reductions in funding for State and local 
preparedness and response capabilities, we are also concerned with the 
declining funds for CDC's preparedness and response activities. While 
the President's budget request provides a small $9 million increase for 
fiscal year 2013, funding for CDC's internal capacity has declined by 
nearly 50 percent since fiscal year 2006. With this funding, CDC 
operates its Emergency Operations Center around the clock and serves a 
critical role providing rapid logistical support to deploy personnel 
and transfer supplies and equipment to support State and local 
authorities on the front lines during public health emergencies. The 
center also plays a central role in activating response operations, 
deploying personnel to disaster zones and investigating health security 
threats. Continued underfunding of CDC's preparedness and response 
activities will undermine the agency's ability to coordinate 
communications and response activities and to provide scientific, 
logistical, and personnel support to State and local responders.
    APHA is also very concerned about the additional blow that the 
pending sequestration would have on funding for public health programs 
broadly. As you know, the Budget Control Act created a process known as 
sequestration to encourage the so-called ``supercommittee'' to come up 
with a viable deficit reduction proposal. Because the supercommittee 
failed to reach agreement on a plan, sequestration, or across-the-board 
cuts to discretionary funding estimated in the range of 8-10 percent, 
is scheduled to take place in January 2013. Cuts of an additional 8-10 
percent on top of the recent cuts to Federal preparedness programs 
would be nothing short of devastating. Cuts of this magnitude could 
eliminate funding for the 10 National Level 1 chemical labs, shut down 
CDC's emergency operations center, and further reduce funding for SNS 
and other State and local preparedness funding.
                               conclusion
    Public health has historically been asked to do more with less. It 
is now at a breaking point. Unless we start supporting our public 
health system in a more sustained way, our capacity will continue to 
erode and our ability to respond quickly and competently will 
evaporate. Funding public health emergencies once the disaster has 
already occurred is not an effective way to ensure either preparedness 
or accountability.
    We must have a robust public health system with adequate levels of 
personnel who are well-trained and properly equipped to address a 
variety of public health threats. Additionally, the ability to generate 
immediate surge capacity by using an ``all hands on deck'' and ``whole 
of community'' approach is essential and requires a better recognition 
of the role other components of the public health system plays in 
preparedness. Funding is tight at all levels of Government but as the 
economy recovers and we begin to make new strategic investments in 
homeland defense, Congress must make funding the public health system a 
top priority. Protecting the public's health is a matter of National 
security.
    Time and again, we have failed to think more strategically about 
the future of our Nation's public health system, to develop a blueprint 
for where we want to be in the future and how best to fund it. APHA 
believes that far more significant sustained investments in public 
health need to occur if we are to prepare the Nation's public health 
system to protect us from the leading causes of death, and prepare us 
for a rapid response to a range of public health emergencies, whether 
naturally occurring or the result of a chemical, biological, 
radiological, or nuclear attack.
    Thank you for the opportunity to testify before you today about 
state of the Nation's preparedness and our ability to deal with public 
health emergencies. On behalf of the American Public Health 
Association, I look forward to working with you to strengthen all 
aspects of our Nation's public health infrastructure to ensure the 
health and safety of the American public. I am happy to answer any 
questions you may have.

    Mr. Bilirakis. Thank you, Doctor.
    I want to thank all of you for your testimony.
    I will go ahead and recognize myself for 5 minutes. First 
question for Mr. Madden.
    Since the State Preparedness Reports were critical 
components in developing the National Preparedness Report, I am 
interested in learning more about how States develop their 
annual preparedness reports. I am concerned that the self-
assessment survey the States filled out did not allow for 
States to accurately portray the current State preparedness.
    Can you explain more about the self-assessment surveys that 
States filled out this year? Did this survey allow Alaska, 
specifically, to accurately report its capacity levels in all 
31 core capabilities?
    When Alaska was developing its preparedness report, was 
your office able to solicit input from the local emergency 
management and law enforcement personnel and others for input? 
In other words, was there time allotted, did you have the 
opportunity to get input from the community?
    Mr. Madden. Sir, I think that we found ourselves in a 
position of collecting far more information and insight than 
there was room to put into the State Preparedness Report. The 
format was, I understand, limited so that they could quickly 
aggregate the 50 States and get the depth and breadth of the 
issues.
    We worked very strongly with our local jurisdictions, along 
with the other disciplines of fire, police. We also worked with 
the private sector, with which we have a very powerful--it is a 
very strong public-private partnership. We gained the access 
that allowed us to increase our effectiveness even if there was 
not room for it inside the State Preparedness Report. So it was 
of value to us to work broadly and deeply on these issues.
    But the return, so far, returns back into the State and 
local for us to improve our priorities. It has not yet reached 
that level of sophistication where that can be immediately 
brought into the National Preparedness Report. That is why I 
believe the emphasis has to be on that analysis and problem 
solving that the States are using to set our priorities.
    Mr. Bilirakis. Very good. Thank you. Appreciate it.
    Mr. Sena, in recent years, we have seen a dramatic shift in 
the terrorist threat, which now includes plots from homegrown 
and lone-wolf actors in addition to attacks formally directed 
by al-Qaeda and other affiliates. We must be prepared to 
prevent and, if necessary, respond to a variety of techniques, 
as you know, including vehicle-borne IEDs, the potential for 
secondary attacks to target first responders, or, as we read in 
the recent issue of the al-Qaeda in the Arabian Peninsula, the 
Inspire magazine, possibly even wildfires.
    Given this shift, I believe that first responders like 
firefighters should be more fully integrated into the fusion 
center network and certainly be included as recipients of 
intelligence information. If you can give me some information 
on that and give me your opinions on that.
    Do fusion centers include local firefighters presently as 
recipients of intelligence bulletins and products? Although 
many fusion centers in the network include fire services into 
the analytic ranks and/or the liaison programs, many, I 
understand, do not. In your opinion, what is the best way to 
incorporate first responders into the fusion center process?
    Then I have one more question for you, as well.
    Mr. Sena. Thank you, Mr. Chairman.
    As far as firefighters and--all disciplines should be 
incorporated into the fusion center process. Information 
sharing is not a solely law enforcement function. It should 
include emergency managers, public health, all of the other 
disciplines that are available. As far as incorporation in 
fusion centers, those disciplines have a perspective that law 
enforcement, a person like myself, doesn't quite understand the 
needs that they have in the field for their personnel.
    As far as the network and dissemination, fire services are 
heavily involved in that. The Fire Service Intelligence 
Enterprise was actually worked on with a number of firefighters 
from New York, Arizona--in fact, one of the firefighters in my 
own center worked on that project--to develop how the fire 
service would interrelate into this intelligence enterprise 
made up of State, local, urban area fusion center partners. 
They are very valuable to what we do. They are a group of 
people not acting as agents of the Government for, you know, 
collection of the data, but if they come across information in 
the course of their duties, they have the ability, if trained 
properly, to protect privacy, civil rights, and civil 
liberties, and move that suspicious activity forward to fusion 
centers, where that information can be developed and 
potentially be turned over to the Joint Terrorism Task Force.
    As far as the issue regarding the emerging threat of the 
homegrown violent extremists, traditionally in the intelligence 
community and our Federal law enforcement partners, the focus 
has been on those external threats. But looking into the 
threats coming domestically from those folks who have been 
self-radicalized either on-line or by, you know, radicalization 
from small cells within the United States, they had at one 
point the ability to look beyond, using the intelligence 
community tools. But those tools do not work domestically 
because, you know, they don't have those resources within the 
United States. It is those police officers, firefighters, 
emergency medical personnel, public health personnel that will 
contact those radicalized individuals. Based on the defined 
suspicious activity reporting requirements we have, they will 
be able to give us the information we need.
    Thank you, sir.
    Mr. Bilirakis. Thank you.
    I am going to ask one last question. In the interest of 
time, I wanted to ask Dr. Benjamin, and maybe we can talk 
afterwards, Mr. Sena, at another time. Then I want to yield to 
the gentleman from New York.
    But, Dr. Benjamin, figures from the National Association of 
County and City Health Officials show that local health 
departments are continuing to struggle in the face of difficult 
fiscal times. I am sure you agree. These departments self-
reported that during 2011 they continued to struggle. Fifty-
seven percent of them reduced or eliminated services in at 
least one program area. Of 10 areas in public health, emergency 
preparedness ranks second-hardest-hit. Your testimony also 
reflects concern over this decline in local resources; you 
mention that.
    What do you think we might want to ask States in the next 
preparedness report to perhaps better capture a full picture of 
the status of public health security in the United States?
    Dr. Benjamin. Yeah, I would think that it would be helpful 
to have them report on two or three leading measures about 
their capacity to respond to an everyday event. You know, if 
they can't respond to an outbreak of--a foodborne outbreak or 
something like that, it is going to be very difficult for them 
to scale up.
    So I think having, you know, us identify two or three 
measures that measure their current capacity to do something 
routine would, I think, give you a better measure of their 
capacity to do broader public health preparedness than us 
thinking about--because we often get hung up in thinking about 
these big things. When you fill out these kinds of measures, 
you are thinking, okay, I can do the small stuff, but I can't 
do the big stuff. But if you can't do the small stuff, you will 
never get there.
    I think that that would be a good way for you to get an 
early indicator, which I think is what your committee wants to 
do, an early indicator as a red flag that we need to focus in 
on that area.
    Mr. Bilirakis. Good suggestion. Thank you very much, sir.
    Now I will recognize the gentleman from New York, Mr. 
Turner, for, within reason, as long as he would like. I will 
give you Mr. Marino's time, too.
    Mr. Turner. Thirty seconds will be fine.
    New York City has no fusion center. Is that a hole in the 
fabric of the overall system? Is it something that should be 
addressed or corrected? Is it of concern?
    Mr. Sena. As fusion centers were developed, it was left up 
to the decision of the Governors of each State, urban areas, to 
develop their fusion centers. Currently, we have 49 State 
centers, we have 2 territorial centers, and 26 urban areas. As 
far as the determination of where fusion centers should be, I 
believe it should be left up to that region. It is not up to 
the Federal Government to decide, but I believe that those 
regions should make that decision of whether they need a fusion 
center or not.
    The State of New York has the New York State Intelligence 
Center, which is the fusion center for the State. They cover a 
great deal of that area. Right across the way is the New 
Jersey--the regional intelligence center, ``the Rock.''
    So, between those two centers, there is a great deal of 
support. But, you know, I would leave it and say that it is up 
to that area of whether they want to develop that attribute.
    Mr. Turner. Okay. So my fellow New Yorkers are not being 
unnecessarily problematic, eh?
    Mr. Sena. I would say that, you know, as far as looking at 
gaps in the country, that, you know, bringing fusion centers up 
to, you know, beyond baseline capabilities and beyond core 
operation capabilities, having that ability to network--saying 
that everyone needs a fusion center is not necessarily 
something that is a good idea. As I found in my own experience, 
the more operations you may have in a very specific area, the 
more issues you have with collection, dissemination of 
information, and having the proper flow of data.
    Mr. Turner. Uh-huh.
    Mr. Sena. So it really is up to your city of how they want 
to build it.
    Mr. Turner. Okay. Diplomatically handled. Thank you.
    I yield back.
    Mr. Bilirakis. Thank you.
    I have one last question, if you don't mind.
    Mr. Madden, again, explain and elaborate on how States are 
getting the private sector involved in preparation in any 
operations.
    Then if you guys want to elaborate on that issue, I would 
appreciate it. Thank you.
    Mr. Madden. Mr. Chairman, Alaska decided early on that we 
had a partnership with our private infrastructure. They are 
essential to the conduct of our missions and our economy. In 
this partnership, we decided not to go sector-by-sector but to 
invite the members of the key elements and then expand out. We 
have representatives from tourism, from communications, from 
transportation, energy.
    In our engagement with them, we look at the things that we 
have in common. We have recently run a very in-depth analysis 
of the effects of a cyber attack on any one of our members, but 
looking for the cascading or escalating effects. When we had 
our volcanic eruptions in 2009, a volcano very close to 
Anchorage, our largest city, what are the effects of this? We 
worked it through, and we worked out the effects on maritime 
traffic, on public health, on the movement of goods and 
services.
    Our private sector is very, very eager to do this, and we 
are not only sustaining our activities, but we are increasing 
them across the State. We use very much of a market-driven 
approach, that there is a return on the investment of their 
participation. They get not only access to the State so that we 
can improve our plans, they get access to each other so they 
can support each other on their continuity efforts.
    There cannot be a transportation system without energy. 
There cannot be an energy system without communications. All of 
these things put together is our approach to the private 
sector. I believe my approach within Alaska is representative 
of many areas around the country.
    Mr. Bilirakis. Excellent. Thank you.
    Anyone else want to elaborate and talk about that topic?
    Otherwise, I would like to give you a couple minutes, if 
you would like, to briefly discuss another issue. They just 
called for votes, but we have a couple more minutes. I think 
they will hold it open for a while.
    Anyone else want to talk about that particular issue or 
anything else before I----
    Dr. Benjamin. Let me just add that the recent pandemic flu 
of H1N1 really gave the public health community an opportunity 
to work with a broader group than just the health community on 
continuity plans, the identification of sick people, reporting 
of disease, treating folks, using innovative ways to do disease 
control. But it has really opened up an opportunity to do a 
dialogue with a much broader part of the public health 
community, which I think will be very productive over the next 
several years.
    Mr. Bilirakis. Thank you.
    Anyone else.
    Mr. Sena. Sir?
    Mr. Bilirakis. Yes, please.
    Mr. Sena. For the prevention and what we do as fusion 
centers, the private sector is critical. They have over 80 
percent of what we consider critical infrastructure, key 
resources within the country. Having them have the knowledge 
and ability to basically create their own fence and defenses, 
not in brick structure or, you know, building fences 
physically, but in the ability to identify suspicious activity 
reporting, to pass that information.
    Then, also, to have that confidence that fusion centers in 
the Government, going into their facilities to review their 
security procedures, evaluate their vulnerabilities to attack, 
is critical to what we do.
    Also, you know, having the ability to share information 
with them, conversely, so that they feel like they are true 
partners, as they should be, that is critical to what we do.
    Mr. Bilirakis. I agree. It is all voluntary.
    Okay. Anyway, if there is nothing else to add, I really 
appreciate it very much that you all are here. The testimony 
was excellent. Of course, I thank the witnesses for their 
testimony and the Members for their questions.
    The Members of the subcommittee may have some additional 
questions for you, and we ask that you respond in writing. The 
hearing record will be open for 10 days.
    Without objection, the subcommittee stands adjourned. Thank 
you again.
    [Whereupon, at 1:30 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions Submitted by Chairman Gus M. Bilirakis for Timothy W. Manning
    Question 1. The 9/11 Commission wrote that ``The biggest impediment 
to an all-source analysis--a greater likelihood of connecting the 
dots--is the human or systematic resistance to information sharing.''
    Why in the drafts of the National Planning Frameworks has the 
Department of Homeland Security limited information and intelligence 
sharing as a core capability for prevention and protection, rather than 
as a common core capability across all frameworks?
    Answer. Response was not received at the time of publication.
    Question 2. A key finding of the report was that the Federal 
coordination of medical countermeasure efforts across agencies has 
greatly improved since 2001, a topic on which the subcommittee has 
focused significant oversight. We have many more countermeasures 
available, and improved capacity to distribute and dispense them.
    Are you confident, however, that this represents a substantial gain 
in preparedness, such that we could get these countermeasures to all of 
the people who might need them within the 48-hour window required for 
some of the doses? While I think we're all comfortable that we could do 
this on a small scale, are you confident that we could do it 
effectively on a mass scale of the kind that we worry about in the 
homeland security context?
    Answer. Response was not received at the time of publication.
    Question 3. While the Stafford Act exempts certain activities from 
NEPA requirements, according to Section 301, it does not grant a 
general authority to waive the requirements for Environmental Impact 
Statements (EIS) or Environmental Assessments (EA). Given that the 
delays caused by applying for EIS' and EA's has been an impediment to 
short- and long-term recovery efforts, has FEMA developed a system to 
work with the EPA for expedited applications or a waiver process for 
specific activities related to recovery and mitigation?
    Is there an MOU process which covers this issue to allow for short-
term construction (housing, temporary public buildings, infrastructure 
support) to assist with quickly bringing critical infrastructure 
systems back on-line after an event?
    Answer. Response was not received at the time of publication.
    Question 4. Because most critical infrastructure is privately owned 
and operated, there is no public assistance available for rapid 
restoration. Pursuant to 50 U.S.C.  5172, the President has the 
ability to make contributions to a person that owns or operates a 
structure deemed to be of a ``National, critical nature''. If the 
contribution were to be made, it could only happen after the owner/
operator had applied for and received the full amount of a Small 
Business Administration loan.
    Has FEMA considered an exception or worked with the White House on 
the interpretation of the governing regulations to hasten the recovery 
of critical systems post-event without imposing an undue economic or 
bureaucratic burden on the owner/operator by virtue of the Title 50 
process?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
